EXHIBIT 1

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

ARNOLD DAVIS, on behalf of himself
and all others similarly situated,
Plaintiff-Appellee,

No. 17-15719
D.C. No.
1:11-cv-00035

v.
GUAM; GUAM ELECTION
COMMISSION; ALICE M. TAIJERON;
MARTHA C. RUTH; JOSEPH F. MESA;
JOHNNY P. TAITANO; JOSHUA F.
RENORIO; DONALD I. WEAKLEY;
LEONARDO M. RAPADAS,
Defendants-Appellants.

OPINION

Appeal from the United States District Court
for the District of Guam
Frances Tydingco-Gatewood, Chief District Judge,
Presiding
Argued and Submitted October 10, 2018
University of Hawaii Manoa
Filed July 29, 2019
Before: Kim McLane Wardlaw, Marsha S. Berzon,
and Johnnie B. Rawlinson, Circuit Judges.
Opinion by Judge Berzon

2

DAVIS V. GUAM
SUMMARY*

Civil Rights / Fifteenth Amendment
The panel affirmed the district court's summary
judgment in favor of plaintiff, a Guam resident, who
challenged a provision of Guam's 2000 Plebiscite Law that
restricted voting to "Native Inhabitants of Guam."
Guam's 2000 Plebiscite Law provided for a "political
status plebiscite" to determine the official preference of the
"Native Inhabitants of Guam" regarding Guam's political
relationship with the United States. Plaintiff alleged, among
other things, that the provision of that law restricting voting
to "Native Inhabitants of Guam" constituted an
impermissible racial classification in violation of the
Fifteenth Amendment, which provides that the right of a
United States citizen to vote shall not be denied or abridged
by the United States or by any State on account of race, color
or previous condition of servitude.
The panel first rejected Guam's contention that the
Fifteenth Amendment was inapplicable to the plebiscite
because that vote will not decide a public issue but rather
requires Guam to transmit the results of the plebiscite to
Congress, the President and the United Nations. The panel
held that despite its limited immediate impact, the results of
the planned plebiscite commit the Guam government to take
specified actions and thereby constitute a decision on a
public issue for Fifteenth Amendment purposes.

* This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

DAVIS V. GUAM

3

The panel applied Rice v. Cayetano, 528 U.S. 495
(2000), and Davis v. Commonwealth Election Comm'n, 844
F.3d 1087 (9th Cir. 2016), which respectively invalidated
laws in Hawaii and the Commonwealth of the Northern
Mariana Islands limiting voting in certain elections to
descendants of particular indigenous groups because those
provisions employed ancestry as a proxy for race in violation
of the Fifteenth Amendment. The panel held that Guam's
2000 Plebiscite Law suffered from the same constitutional
flaw. The panel determined that history and context
confirmed that the "Native Inhabitants of Guam" voter
eligibility restriction so closely paralleled a racial
classification as to be a proxy for race. The panel therefore
concluded that its use as a voting qualification violated the
Fifteenth Amendment as extended by Congress to Guam.

COUNSEL
Julian Aguon (argued), Special Assistant Attorney General;
Kenneth Orcutt, Deputy Attorney General; Office of the
Attorney General, Tamuning, Guam; for DefendantsAppellants.
Lucas C. Townsend (argued); Douglas R. Cox, Gibson Dunn
& Crutcher LLP, Washington, D.C.; J. Christian Adams,
Election Law Center PLLC, Alexandria, Virginia; Michael
E. Rosman, Center for Individual Rights, Washington, D.C.;
Mun Su Park, Law Offices of Park & Associates, Tamuning,
Guam; for Plaintiff-Appellee.
Dayna J. Zolle, Attorney; Civil Rights Division, United
States Department of Justice, Washington, D.C.; for Amicus
Curiae United States.

4

DAVIS V. GUAM
OPINION

BERZON, Circuit Judge:
Guam's 2000 Plebiscite Law provides for a "political
status plebiscite" to determine the official preference of the
"Native Inhabitants of Guam" regarding Guam's political
relationship with the United States. Guam Pub. L. No. 25106 (2000). Our question is whether the provisions of that
law restricting voting to "Native Inhabitants of Guam"
constitutes an impermissible racial classification in violation
of the Fifteenth Amendment.'
Rice v. Cayetano, 528 U.S. 495 (2000), and Davis v.
Commonwealth Election Comm'n, 844 F.3d 1087 (9th Cir.
2016), respectively invalidated laws in Hawaii and the
Commonwealth of the Northern Mariana Islands limiting
voting in certain elections to descendants of particular
indigenous groups because those provisions employed
laincestry [as} a proxy for race" in violation of the Fifteenth
Amendment. Rice, 528 U.S. at 514. Guam's 2000 Plebiscite
Law suffers from the same constitutional flaw. History and
context confirm that the "Native Inhabitants of Guam" voter
eligibility restriction so closely parallels a racial
classification as to be a proxy for race. Its use as a voting
qualification therefore violates the Fifteenth Amendment as
extended by Congress to Guam.

I Because we affirm the district court on Fifteenth Amendment
grounds, we do not address Davis's arguments that the 2000 Plebiscite
Law violates the Fourteenth Amendment, the Voting Rights Act, and the
Organic Act of Guam.

DAVIS V. GUAM

5

I
The factual background of this case is intertwined with
the history of Guam (the "Territory"), of its indigenous
people, and of its colonization. We recognize that this
history, like history in general, is subject to contestation both
as to exactly what happened in the past and as to the
interpretation of even well-established facts. We do not
attempt to settle those debates. "Our more limited role, in the
posture of this particular case, is to recount events as
understood by the lawmakers, thus ensuring that we accord
proper appreciation to their purposes in adopting the policies
and laws at issue." Rice, 528 U.S. at 500.
Guam has long been inhabited by an indigenous people,
commonly referred to as Chamorro. See William L. Wuerch
& Dirk Anthony Ballendorf, Historical Dictionary of Guam
and Micronesia 40-44 (The Scarecrow Press, Inc. 1994);
Developments in the Law, Chapter Four: Guam and the
Case for Federal Deference, 130 Harv. L. Rev. 1704, 1722
(2017). Beginning in the sixteenth century, Spain colonized
Guam. Then, in 1899, after the Spanish-American war,
Spain ceded Guam to the United States through Article II of
the 1898 Treaty of Paris. Until 1950, Guam remained under
the control of the U.S. Navy, except for a Japanese
occupation from 1941 through 1944. See Guam v. Guerrero,
290 F.3d 1210, 1214 (9th Cir. 2002). In 1950, responding to
petitions from Guam's inhabitants, Congress passed the
Organic Act of Guam. Pub. L. No. 81-630, 64 Stat. 384
(1950) (codified at 48 U.S.C. §§ 1421-24) ("Organic Act").
The Organic Act (1) designated Guam as an
unincorporated territory of the United States subject to
Congress's plenary power, 48 U.S.C. § 1421a;
(2) established executive, legislative, and judicial branches
of government for the Territory, id. §§ 1422-24, as well as a

.4'

6

DAVIS V. GUAM

limited Bill of Rights modeled after portions of the Bill of
Rights in the Federal Constitution, id. § 1421b;2 and
(3) extended U.S. citizenship to three categories of people:
(a)(1): All inhabitants of the island of Guam
on April 11, 1899, including those
temporarily absent from the island on that
date, who were Spanish subjects, who after
that date continued to reside in Guam or other
territory over which the United States
exercises sovereignty, and who have taken no
affirmative steps to preserve or acquire
foreign nationality[, and their children.]
(a)(2): All persons born in the island of Guam
who resided in Guam on April 11, 1899,
including those temporarily absent from the
island on that date, who after that date
continued to reside in Guam or other territory
over which the United States exercises
sovereignty, and who have taken no
affirmative steps to preserve or acquire
foreign nationality[, and their children.]
(b): All persons born in the island of Guam
on or after April 11, 1899 . . . Provided, That
in the case of any person born before the date
of enactment of [the Organic Act], he has

2 Absent an act of Congress, federal constitutional rights do not
automatically apply to unincorporated territories. Guerrero, 290 F.3d
at 1214. In 1968, Congress amended the Organic Act to extend certain
federal constitutional rights to Guam, including the Fifteenth
Amendment. See 48 U.S.C. § 1421b(u).

DAVIS V. GUAM

7

taken no affirmative steps to preserve or
acquire foreign nationality.
8 U.S.C. § 1407 (1952), repealed by Pub. L. No. 82-414,
§§ 101(a)(38), 301(a)(1) 66 Stat. 163, 171, 235 (1952)
(codified at 8 U.S.C. §§ 1101(a)(38), 1401(a)).
According to the 1950 Census—which derived its racial
categories from "that which is commonly accepted by the
general public"—the Chamorro population comprised the
single largest racial group in Guam at the time (45.6%). See
U.S. Bureau of the Census, Census ofPopulation: 1950, V ol.
II at 54-46 tbl. 36 (1953) ("1950 Census"). The second
largest racial group was White (38.5%), and the rest of the
population was Filipino, Chinese, or other races. Virtually
all non-Chamorro people residing in the Territory were
either already U.S. citizens (99.4% of all Whites were U.S.
citizens) or were born outside the jurisdiction of the United
States and therefore likely not citizens by authority of the
Organic Act (e.g., 94.4% of Filipinos were non-citizens). As
of 1950, 98.6% of all non-citizens in Guam were Chamorro.
Id. at 54-49 tbl. 38.
The citizenship provisions of the Organic Act were in
force for less than two years. In 1952, Congress enacted the
Immigration and Nationality Act of 1952 ("INA"), which,
among other things, repealed the citizenship provisions of
the Organic Act, see Pub. L. No. 82-414, § 403(a)(42), 66
Stat. 163, 280, and conferred U.S. citizenship on all persons
born in Guam after passage of the new INA. See id.
§§ 101(a)(38), 301(a)(1), 66 Stat. 163, 171, 235 (codified at
8 U.S.C. §§ 1101(a)(38), 1401(a)).
In the decades following passage of the Organic Act,
some of Guam's inhabitants continued to advocate for more
political autonomy. Those efforts eventually resulted in,

8

DAVIS V. GUAM

among other things, "An Act to Establish the Chamorro
Registry," enacted by the Guam legislature in 1996. Guam
Pub. L. No. 23-130, § 1 (codified as amended at 3 Guam
Code Ann. §§ 18001-31) ("Registry Act"), repealed in part
by Guam Pub. L. No. 25-106 (2000). The Registry Act
created a registry of "Chamorro individuals, families, and
their descendants." Id. § 1. It referred to the "Chamorro" as
the "indigenous people of Guam" who possess "a distinct
language and culture." /c/.3 The Act's stated purpose was for
the registry to "assist in the process of heightening local
awareness among the people of Guam of the current struggle
3 Another

section of the Registry Act defined "Chamorro":

(a) Chamorro means those persons defined by
the U.S. Congress in Section IV of the Organic
Act of Guam . . . and their descendants:
All inhabitants of the island of Guam on
April 11, 1899, including those temporarily
absent from the island on that date, who were
Spanish subjects, who after that date
continued to reside in Guam or other territory
over which the United States exercises
sovereignty, and have taken no affirmative
steps to preserve or acquire foreign
nationality; and
All persons born in the island of Guam,
who resided in Guam on April 11, 1899,
including those temporarily absent from the
island on that date, who after that date
continued to reside in Guam or other territory
over which the United States exercises
sovereignty, and who have taken no
affirmative steps to preserve or acquire
foreign nationality.
Registry Act § 20001(a).

DAVIS V. GUAM
for Commonwealth, of the identity of the indigenous
Chamorro people of Guam, and of the role that Chamorros
and succeeding generations play in the island's cultural
survival and in Guam's political evolution towards selfgovernment." Id.
One year later, the Guam legislature established the
"Commission on Decolonization for the Implementation and
Exercise of Chamorro Self-Determination," Guam Pub. L.
No. 23-147 (1997) (codified at 1 Guam Code Ann. §§ 210115) ("1997 Plebiscite Law"), repealed in part by Guam Pub.
L. No. 25-106 (2000). The Legislature established the
Commission on Decolonization "in the interest of the will of
the people of Guam, desirous to end colonial discrimination
and address long-standing injustice of [the Chamorro]
people." Id. § 1. The purpose of the Commission on
Decolonization was to "ascertain the desire of the Chamorro
people of Guam as to their future political relationship with
the United States." Id. § 5. It was charged with writing
position papers on the political status options for Guam and
with conducting a public information campaign based on
those papers. Id. §§ 6-9. The 1997 Plebiscite Law also called
for a "political status plebiscite" during the next primary
election, in which voters would be asked:
In recognition of your right to selfdetermination, which of the following
political status options do you favor?
Independence
Free Association
Statehood

10

DAVIS V. GUAM

Id. § 10. Voting in the plebiscite was to be limited to
"Chamorro People," defined as "[a]ll inhabitants of Guam in
1898 and their descendants who have taken no affirmative
steps to preserve or acquire foreign nationality." Id. §§ 2(b),
10. The Commission on Decolonization was then directed to
"transmit [the results of the plebiscite] to the President and
Congress of the United States and the Secretary General of
the United Nations." Id. § 5.
Before the planned date of the self-determination
plebiscite, the Supreme Court in Rice v. Cayetano
invalidated a Hawaii law restricting the right to vote in
certain elections to "Hawaiians," defined as the descendants
of people inhabiting the Hawaiian Islands in 1778. 528 U.S.
at 499. A month after Rice was decided, the Guam legislature
enacted the law at issue in this case. Guam Pub. L. No. 25106 (2000) (codified at 3 Guam Code Ann. §§ 21000-31,
1 Guam Code Ann. §§ 2101-15) ("2000 Plebiscite Law").
The 2000 Plebiscite Law contains several interrelated
provisions: First, it leaves the Registry Act intact and creates
a separate "Guam Decolonization Registry" in which those
voters qualified for the new political status plebiscite would
be listed.4 3 Guam Code Ann. §§ 21000, 21026. Those

4 The 2000 Plebiscite Law modified the definition of "Chamorro" in
the Registry Act, to the following:

(a) 'Chamorro' shall mean:
(1) all inhabitants of the Island of Guam on April
11, 1899, including those temporarily absent from
the Island on that date and who were Spanish
subjects; and

DAVIS V. GUAM

11

qualified to register, and therefore to vote, in the plebiscite
must be "Native Inhabitants of Guam," defined as "those
persons who became U.S. Citizens by virtue of the authority
and enactment of the 1950 Organic Act of Guam and
descendants of those persons." Id. § 21001(e).
Second, the 2000 Plebiscite Law retains the Commission
on Decolonization but amends portions of the 1997
Plebiscite Law to replace all references to "Chamorro" with
"Native Inhabitants of Guam." 1 Guam Code Ann. §§ 210102, 2104-05, 2110. As revised, the law establishing a new
plebiscite provides:
The general purpose of the Commission on
Decolonization shall be to ascertain the intent
of the Native Inhabitants of Guam as to their
future political relationship with the United
States of America. Once the intent of the
Native Inhabitants of Guam is ascertained,
the Commission shall promptly transmit that
desire to the President and the Congress of
(2) all persons born on the Island of Guam prior
to 1800, and their descendants, who resided on
Guam on April 11, 1899, including those
temporarily absent from the Island on that date,
and their descendants;
(i) 'descendant' means a person who has
proceeded by birth, such as a child or
grandchild, to the remotest degree, from any
'Chamorro' as defined above, and who is
considered placed in a line of succession
from such ancestor where such succession is
by virtue of blood relations.
2000 Plebiscite Law § 12.

12

DAVIS V. GUAM
the United States of America, and to the
Secretary General of the United Nations.

Id. § 2105.
Finally, the 2000 Plebiscite Law states that "[t]he intent
of [the law] shall not be construed nor implemented by the
government officials effectuating its provisions to be race
based, but founded upon the classifications of persons as
defined by the U.S. Congress in the 1950 Organic Act of
Guam." 3 Guam Code Ann. § 21000. Rather, the intent of
the law is "to permit the native inhabitants of Guam, as
defined by the U.S. Congress' 1950 Organic Act of Guam to
exercise the inalienable right to self-determination of their
political relationship with the United States of America," as
that "right has never been afforded." Id.
One subsequent amendment to the plebiscite relevant to
this case followed. In 2010, the Guam legislature passed a
law providing that individuals who received or had been
preapproved for a Chamorro Land Trust Commission
("CLTC") property lease would be automatically registered
in the Guam Decolonization Registry. Guam Pub. L. No. 30102, § 21002.1 (codified at 3 Guam Code Ann. § 21002.1).
The CLTC was created in 1975 to administer leases for lands
that the United States had seized from Guam inhabitants
during and after World War II and had later returned to the
Guam government. See Guam Pub. L. 12-226 (codified as
amended at 21 Guam Code Ann. §§ 75101-75125). Persons
eligible to receive CLTC leases must be "Native
Chamorros," defined as "any person who became a U.S.
citizen by virtue of the authority and enactment of the
Organic Act of Guam or descendants of such person."
21 Guam Code Ann. §§ 75101(d), 75107(a).

DAVIS V. GUAM

13

Arnold Davis, a non-Chamorro resident of Guam, sought
to register for the Guam Decolonization Registry and
thereby to qualify as a voter in the plebiscite. He was denied
registration because he did not meet the definition of "Native
Inhabitant of Guam." Davis filed suit in 2011, challenging
the 2000 Plebiscite Law on grounds that it violated the
Fourteenth and Fifteenth Amendments of the Constitution,
the Voting Rights Act of 1965, and the Organic Act.
At the time the suit was filed, the plebiscite had not yet
occurred, and no date was set for it to take place. Davis v.
Guam, Civil Case No. 11-00035, 2013 WL 204697, *2-3
(D. Guam 2013) ("Davis I"). Relying on the uncertain
timing of the plebiscite, the district court initially dismissed
the case for lack of standing and ripeness. Id. at *9. We
reversed that dismissal on appeal, holding that Davis's
alleged unequal treatment was a sufficient injury to establish
standing and that his claim was ripe because he adequately
alleged that he was "currently being denied equal treatment
under Guam law." Davis v. Guam, 785 F.3d 1311, 1315-16
(9th Cir. 2015) ("Davis II").
After remand to the district court the parties filed crossmotions for summary judgment. The district court granted
Davis's motion for summary judgment and permanently
enjoined Guam from conducting a plebiscite restricting
voters to Native Inhabitants of Guam. Davis v. Guam, No.
CV 11-00035, 2017 WL 930825, at *1 (D. Guam 2017)
("Davis III").
li&rdistrict court concluded, first, that the plebiscite was
an election for Fifteenth Amendment purposes because the
result of the vote would decide a public issue. Id. at *11.
Next, the court determined that although "Native Inhabitants
of Guam" is not an explicit racial classification, the history
and structure of the 2000 Plebiscite Law reveal that "the very

14

DAVIS V. GUAM

object of the statutory definition in question here . . . is to
treat the Chamorro people as a 'distinct people.'" Id. at *8
(quoting Rice, 528 U.S. at 515). The 2000 Plebiscite Law
therefore used "ancestry as a proxy for race," the district
court held, in violation of the Fifteenth Amendment. Id.
The court also decided that the 2000 Plebiscite Law
violated the Equal Protection Clause of the Fourteenth
Amendment. Applying strict scrutiny, the court held the law
was not narrowly tailored to a compelling state interest as all
inhabitants of Guam, not just its "Native Inhabitants," have
an interest in the results of the plebiscite. Id. at *12-*14. The
district court concluded that less restrictive alternatives exist,
including "conducting a poll with the assistance of the
University of Guam." Id. at *14.
This appeal followed. "We review a district court's
decision on cross motions for summary judgment de novo."
Commonwealth Election Comm 'n, 844 F.3d at 1091.
II
Congress has provided that the Fifteenth Amendment
"shall have the same force and effect [in Guam] as in the
United States." 48 U.S.C. § 1421b(u); accord Davis II,
785 F.3d at 1314 n.2. That Amendment provides: "The right
of citizens of the United States to vote shall not be denied or
abridged by the United States or by any State on account of
race, color, or previous condition of servitude." U.S. Const.
amend. XV, § 1. The Fifteenth Amendment is
" omprehensive-in-reatIC-aTd
i applies to "any election in
which public issues are decided or public officials selected."
Rice, 528 U.S. at 512, 523 (quoting Terry v. Adams, 345 U.S.
461, 468 (1953)).

DAVIS V. GUAM

15

Guam argues that the Fifteenth Amendment is
inapplicable to the plebiscite because that vote will not
decide a public issue. It notes that the 2000 Plebiscite Law
requires Guam to transmit the results of the plebiscite to
Congress, the President, and the United Nations but will not,
itself, create any change in the political status of the
Territory. That is so. But, despite its limited immediate
impact, the results of the planned plebiscite commit the
Guam government to take specified actions and thereby
constitute a decision on a public issue for Fifteenth
Amendment purposes.
We begin by noting that any suggestion that the Fifteenth
Amendment be read restrictively should be viewed with
skepticism. The right to vote is foundational in our
democratic system. See Kramer v. Union Free Sch. Dist. No.
15, 395 U.S. 621, 626 (1969); Harper v. Va. State Bd. of
Elections, 383 U.S. 663, 667 (1966); Reynolds v. Sims,
377 U.S. 533, 555 (1964). Protecting the franchise is
"preservative of all rights," because the opportunity to
participate in the formation of government policies defines
and enforces all other entitlements. Yick Wo v. Hopkins,
118 U.S. 356, 370 (1886). "Other rights, even the most basic,
are illusory if the right to vote is undermined." Wesberry v.
Sanders, 376 U.S. 1, 17 (1964). For that reason, the Fifteenth
Amendment is "comprehensive in reach." Rice, 528 U.S.
at 512. The text of the Fifteenth Amendment states broadly
that the right "to vote" shall not be denied. U.S. Const.
amend. XV, § 1. It does not qualify the meaning of "vote" in
any way:-In-light of the text and the unique importance of
the Fifteenth Amendment, where there is any doubt about
the Fifteenth Amendment's boundaries we err on the side of
inclusiveness.

16

DAVIS V. GUAM

We have no need here to define the precise contours of
what it means to "decide" a "public issue" under the
Fifteenth Amendment. See Rice, 528 U.S. at 523. It is at least
clear that the Amendment includes any government-held
election in which the results commit a government to a
particular course of action. That requirement is met here.
First, the issue the 2000 Plebiscite Law would decide is
public in nature. A basic premise of our representative
democracy is "the critical postulate that sovereignty is vested
in the people." U.S. Term Limits, Inc. v. Thornton, 514 U.S.
779, 794 (1995). Because the government "derives all its
powers directly or indirectly from the great body of the
people," The Federalist No. 39, at 241 (James Madison)
(Clinton Rossiter ed., 1961), the government necessarily
exercises authority on behalf of the public when it acts. In
that sense, its actions are of public concern.
The Supreme Court acknowledged this foundational
principle in Terry v. Adams, which addressed a related
question—whether an election held by a private organization
constituted state action for purposes of the Fifteenth
Amendment. Terry held that the Jaybird Democratic
Association's primary elections, which functionally
determined the Democratic Party's candidates for public
office in a Texas county, violated the Fifteenth Amendment
by excluding black voters. 345 U.S. at 470 (plurality
opinion). The Court concluded that although the Jaybird
primaries were private in the sense that they were conducted
by a private entity, they served_a_public-ftmetion-because
they chose candidates for public office. The Jaybird
primaries were therefore covered by the Fifteenth
Amendment. Id. at 469-70.
A plurality of the Court explained this conclusion as
follows: "Clearly the [Fifteenth] Amendment includes any

DAVIS V. GUAM

17

election in which public issues are decided or public officials
selected. Just as clearly the Amendment excludes social or
business clubs." Id. at 468-69. Decades later, the Rice
majority adopted the formulation of the Terry plurality—that
the Fifteenth Amendment applies to "any election in which
public issues are decided or public officials selected."
528 U.S. at 523 (quoting Terry, 345 U.S. at 468). This focus
is confirmed by another passage in the Terry plurality
opinion on which Rice relied. That passage specified that the
Fifteenth Amendment establishes a right "not to be
discriminated against as voters in elections to determine
public governmental policies or to select public officials,
national, state, or local." Id. at 514 (emphasis added)
(quoting Terry, 528 U.S. at 467).
In this case, the 2000 Plebiscite Law prescribes that the
Commission on Decolonization—a governmental body—
will make an official transmission to Congress, the
President, and the United Nations, and the results of the
plebiscite will determine the content of the message
transmitted. See 1 Guam Code Ann. § 2105. What a
governmental body will communicate to other governmental
entities is assuredly a "public issue"—a matter of
"governmental polic[y]." Terry, 345 U.S. at 467-68.
Second, the election called for by the 2000 Plebiscite
Law commits Guam to a particular course of action: A
governmental commission with prescribed duties would be
bound to transmit the result of the plebiscite to the federal
government and to the United_Nations—By-requiring-the
transmission of the plebiscite results, the 2000 Plebiscite
Law mandates that the Commission on Decolonization take
a public stance in support of the result. 3 Guam Ann. Code
§ 21000 ("It is the purpose of this legislation to seek the
desires to those peoples who were given citizenship in 1950

18

DAVIS V. GUAM

and to use this knowledge to further petition Congress and
other entities to achieve the stated goals."). So, regardless of
whether the result of the plebiscite ultimately affects the
political status of Guam, the plebiscite will "decide" a public
issue—what position a governmental entity will advocate
before domestic and international bodies.
The plebiscite therefore will both concern a "public
issue"—Guam's official communication with other
governmental bodies—and "decide" it, in that it will commit
a governmental body to communicate the position
determined by the plebiscite. Given these two features, the
election is, under Rice, subject to the Fifteenth Amendment's
protection against racial restrictions on the right to vote.
Were this plebiscite not covered by the Fifteenth
Amendment, the scope of the Amendment's prohibition on
race-based voting restrictions in elections would be
significantly narrowed. Elections regularly require a
governmental body to take a stance on issues even though
there may be no on-the-ground changes in policy. For
example, state initiatives sometimes authorize permission to
make a policy change, but the actual policy change is
contingent on future occurrences. See, e.g., Proposition 7,
Assemb. B. 807, 2017-2018 Leg., Reg. Sess. (Cal. 2018)
(allowing the state legislature to vote to change daylight
savings time, if the change is allowed by the federal
government).5 Moreover, in presidential elections, political
5 State-statutory-and-constitutioifl
a -limits govern what propositions
can be the subject of state initiatives or referenda. See, e.g., Am. Fed 'n
of Labor v. Eu, 36 Cal. 3d 687, 703 (1984) (holding that a state initiative
requiring the legislature to enact a resolution which did not itself change
California law exceeded scope of the initiative power under the
California Constitution); Harper v. Waltermire, 213 Mont. 425, 428
(1984) (same with respect to Montana initiative under the Montana

DAVIS V. GUAM

19

parties in several states employ nonbinding primaries, in
which primary voters may express their preference for a
candidate but the delegates to a party's national convention
are not, technically, bound by that preference. See Nathaniel
Pers i ly, Candidates v. Parties: The Constitutional
Constraints on Primary Ballot Access Laws, 89 Geo. L.J.
2181, 2219 n.127 (2001).6 Concluding that the Fifteenth
Amendment only applies to elections triggering an
immediate substantive action would exempt a broad
category of elections from Fifteenth Amendment protection.
We hold that Guam's 2000 Plebiscite Law is subject to
the requirements of the Fifteenth Amendment.
III
We turn to the core of the Fifteenth Amendment issue:
Does the 2000 Plebiscite Law deny citizens the right to vote
"on account of race?" U.S. Const. amend. XV, § 1.7

Constitution). Those limits are distinct from the question of whether the
Fifteenth Amendment applies if an initiative or referendum is held.
6 We do not decide whether these elections are definitively subject
to the requirements of the Fifteenth Amendment. We note them only as
examples of the type of elections that might be affected if the Fifteenth
Amendment applied only to elections that triggered immediate
substantive outcomes.
7 We address only the constitutionality of the plebiscite under
Section 1—of tho—Ftfteenth Amendment. Our opinion affects neither
Congress's power under Section 2 to enact appropriate legislation
enforcing the Amendment nor the analysis of voting restrictions under
the Fourteenth Amendment, which may be subject to heightened scrutiny
rather than an absolute bar. See, e.g., Harper, 383 U.S. at 667 (holding
that poll taxes in elections must be "carefully and meticulously
scrutinized" under the Equal Protection Clause (citation omitted)).

20

DAVIS V. GUAM

The Fifteenth Amendment's prohibition on race-based
voting restrictions is both fundamental and absolute. See
Shaw v. Reno, 509 U.S. 630, 639 (1993). As "[t]here is no
room under the Amendment for the concept that the right to
vote in a particular election can be allocated based on race,"
the levels of scrutiny applied to other constitutional
restrictions are not pertinent to a race-based franchise
limitation. Rice, 528 U.S. at 523 (emphasis added). This
clear-cut rule reflects the importance of the franchise as "the
essence of a democratic society" and recognizes that "any
restrictions on that right strike at the heart of representative
government." Reynolds, 377 U.S. at 555.
Moreover, the Fifteenth Amendment applies with equal
force regardless of the particular racial group targeted by the
challenged law. Although originally enacted to guarantee
emancipated slaves the right to vote after the Civil War, the
generic language of the Fifteenth Amendment "transcend[s]
the particular controversy which was the immediate impetus
for its enactment." Rice, 528 U.S. at 512. The Amendment's
prohibition on racial discrimination "grants protection to all
persons, not just members of a particular race." Id. Its
"mandate of neutrality" is thus straightforward and
universal: "If citizens of one race having certain
qualifications are permitted by law to vote, those of another
having the same qualifications must be" permitted to vote as
well. Id. (quoting United States v. Reese, 92 U.S. 214, 218
(1875)).
Determining whcthcr a law discriminates "on account of
race" is not, however, always straightforward. Voting
qualifications that, by their very terms, draw distinctions
based on racial characteristics are of course prohibited. See
Nixon v. Herndon, 273 U.S. 536 (1927); South Carolina v.
Katzenbach, 383 U.S. 301, 325 (1966) (collecting cases).

DAVIS V. GUAM

21

But "[t]he (Fifteenth) Amendment nullifies sophisticated as
well as simple-minded modes of discrimination." Gomillion
v. Lightfoot, 364 U.S. 339, 342 (1960) (quoting Lane v.
Wilson, 307 U.S. 268, 275 (1939)). So, in addition to facial
racial distinctions, classifications that are race neutral on
their face but racial by design or application violate the
Fifteenth Amendment.
The well-established hallmarks of such discrimination
for constitutional purposes are discriminatory intent, see
Reno v. Bossier Par. Sch. Bd., 520 U.S. 471, 481-82 (1997);
City of Mobile v. Bolden, 446 U.S. 55, 62-63 (1980)
(plurality opinion), and discriminatory implementation, see
Lassiter v. Northampton Cty. Bd. of Elections, 360 U.S. 45,
53 (1959) ("Of course a literacy test, fair on its face, may be
employed to perpetuate that discrimination which the
Fifteenth Amendment was designed to uproot.").
One category of facially neutral restrictions that runs
afoul of the Fifteenth Amendment is a classification so
closely intertwined with race that it is a "proxy for race," as
the Supreme Court found to be the case in Rice, 528 U.S. at
514. Rice addressed a voting qualification in statewide
elections for the trustees of the Office of Hawaiian Affairs,
a state agency that administers programs for the benefit of
descendants of Native Hawaiians. Id. at 498-99. The Hawaii
Constitution limited voting in those elections to
"Hawaiians," defined by statute as "any descendant of the
aboriginal peoples inhabiting the Hawaiian Islands which
exercised sovereignty and_suhsisted in the Hawaiian Islands
in 1778, and which peoples thereafter have continued to
reside in Hawaii." Id. at 509 (quoting Haw. Rev. Stat. § 102). Rice held that the Hawaiian voting restriction was racial
"in purpose and operation." Id. at 516. It reasoned as
follows:

22

DAVIS V. GUAM
Ancestry can be a proxy for race. It is that
proxy here. . . . For centuries Hawaii was
isolated from migration. The inhabitants
shared common physical characteristics, and
by 1778 they had a common culture. Indeed,
the drafters of the statutory definition in
question emphasized the "unique culture of
the ancient Hawaiians" in explaining their
work. The provisions before us reflect the
State's effort to preserve that commonality of
people to the present day. In the
interpretation of the Reconstruction era civil
rights laws we have observed that "racial
discrimination" is that which singles out
"identifiable classes of persons . . . solely
because of their ancestry or ethnic
characteristics." Saint Francis Coll. v. AlKhazraji, 481 U.S. 604, 613 (1987). The very
object of the statutory definition in question
and of its earlier congressional counterpart in
the Hawaiian Homes Commission Act is to
treat the early Hawaiians as a distinct people,
commanding their own recognition and
respect. The State, in enacting the legislation
before us, has used ancestry as a racial
definition and for a racial purpose.

Id. at 514-15 (second alteration in original) (citations
omitted).
To confirm its conclusion, Rice looked to the history of
the "Hawaiian" definition at issue and determined that
previously proposed versions of the qualification had
expressly referred to "Hawaiians" as a race. Id. at 515-516.
The Court concluded that removal of the "race" reference

DAVIS V. GUAM

23

did not change the classification of individuals allowed to
vote in the election. The voter qualification therefore
remained race-based although it no longer proclaimed as
such. Id. at 516. Rice provides key guidance for determining
whether the 2000 Plebiscite Law's restriction of the vote to
"Native Inhabitants of Guam" is race-based.
A
Our first inquiry is whether, as Davis maintains, Rice
held all classifications based on ancestry to be impermissible
proxies for race. It did not.
The Supreme Court selected its words carefully when it
struck down the voting restrictions at issue in Rice. It stated
that "[a]ncestry can be a proxy for race" in the context of the
Fifteenth Amendment, not that it always is. Id. at 514
(emphasis added).
The Court's determination that the challenged voting
qualification's use of ancestry "is that proxy here," id., rested
on the historical and legislative context of the particular
classification at issue, not on the categorical principle that all
ancestral classifications are racial classifications. The Court
focused specifically on the fact that in 1778, the individuals
inhabiting the Hawaiian Islands were a "distinct people"
with common physical characteristics and shared culture. Id.
at 515. Limiting the franchise to descendants of that distinct
people, the Court reasoned, singled out individuals for
special treatment based on their "ethnic characteristic and
cultural traditions." Id. at 515, 517. Rice buttressed that
conclusion with evidence from the legislative history of the
challenged statute, which referred to "Hawaiians" as a
"race." Id. at 516. In other words, the Court recognized that
ancestral tracing can be a characteristic of a racial
classification, but is not itself always sufficient to identify

24

DAVIS V. GUAM

such a classification. And it concluded that the ancestral
classification at issue was problematic because it operated as
a race-based voting restriction. If the Court had meant to
suggest that all classifications based on ancestry were
impermissible, it would have had no need to examine the
unique history of the descendants allowed to vote under the
challenged law.
Davis contends that one sentence in Rice indicates
otherwise—that all ancestry classifications are
impermissible
racial
classifications:
"`[R]acial
discrimination' is that which singles out 'identifiable classes
of persons . . . solely because of their ancestry or ethnic
characteristics.' Id. at 515 (second alteration in original)
(quoting Saint Francis Coll., 481 U.S. at 613). But that
interpretation wrenches the sentence in Rice from its context.
Rice quoted Saint Francis Coll. to support its conclusion that
the specific classification at issue in Rice was a racial
classification.8 After an exhaustive account of Hawaii's
8 Saint Francis Coll. does not suggest that all ancestral
classifications are racial ones either. That case addressed whether
discrimination based specifically on "Arabian ancestry" constituted
racial discrimination for purposes of 42 U.S.C. § 1981. 481 U.S. at 607.
After recounting the legislative history of § 1981 and the understanding
of race at the time the statute was passed in 1870, the Court concluded
the following:

Based on the history of § 1981, we have little trouble
in concluding that Congress intended to protect from
discrimination identifiable classe
subjected to intentional discrimination solely because
of their ancestry or ethnic characteristics. Such
discrimination is racial discrimination that Congress
intended § 1981 to forbid, whether or not it would be
classified as racial in terms of modern scientific
theory. [Section] 1981, at a minimum, reaches

DAVIS V. GUAM

25

history, the Court determined that the voter eligibility
classification singled out persons solely because of their
ancestral relationship to a culturally and ethnically distinct
population, and went on to conclude that "[a]ncestral tracing
of this sort achieves its purpose by creating a legal category
which employs the same mechanisms, and causes the same
injuries, as laws or statutes that use race by name." Id. at 517
(emphasis added). Nowhere did the Court suggest that
classification by ancestry alone was sufficient to render the
challenged classification a racial one.
B
Rice did not go on to explain further the connection
between ancestry and race, or to explain what it meant by
"ethnic characteristics and cultural traditions." Id. And
modern courts have generally resisted defining with
precision the legal concept of race and more specifically, the
relationship between ancestry and the legal concept of race.
Racial categories were once thought to be grounded in
biological fact, but shifting understandings of which groups
constitute distinct races throughout history reveal such
categories to be "social construct[s]," the boundaries of
which are subject to contestation and revision. Ho ex rel. Ho
v. S.F. Unified Sch. Dist., 147 F.3d 854, 863 (9th Cir. 1998);
discrimination against an individual because he or she
is genetically part of an ethnically and
physiognomica ly distinctive sub-g
omo
sapiens. It is clear from our holding, however, that a
distinctive physiognomy is not essential to qualify for
§ 1981 protection.
Id. at 613 (footnotes and internal quotation marks omitted).

26

DAVIS V. GUAM

see also Saint Francis Coll., 481 U.S. at 610 n.4; United
States v. Nelson, 277 F.3d 164, 176 n.12 (2d Cir. 2002).9
Still, as a legal concept, a racial category is generally
understood as a group, designated by itself or others, as
socially distinct based on perceived common physical,
ethnic, or cultural characteristics. So, for example, Abdullahi
v. Prada USA Corp. stated that "[a] racial group as the term
is generally used in the United States today is a group having
a common ancestry and distinct physical traits," 520 F.3d
710, 712 (7th Cir. 2008), a definition also reflected in a
federal statute outlawing genocide. See 18 U.S.C. § 1093(6)
("[T]he term 'racial group' means a set of individuals whose
identity as such is distinctive in terms of physical
characteristics or biological descent."). Saint Francis Coll.
held that racial discrimination includes discrimination based
on "ethnic characteristics," 481 U.S. at 612-613, and Rice
emphasized that the "unique culture of the ancient
Hawaiians," combined with their common ancestry—that is,
biological descent—distinguished them as a race. 528 U.S.
9 Examples of this contestation and revision have at times reached
our highest court. In the early twentieth century, the Supreme Court
decided a number of cases delineating who qualified as white and were
therefore afforded its privileges. In Ozawa v. United States, 260 U.S. 178
(1922), the Court held that a man of the "Japanese race born in Japan"
was not a "white person" and therefore was not qualified to be
naturalized under the country's then-racially restrictive naturalization
laws. It reasoned that the term "white person" was synonymous with the
"Caucasian race." Id. at 189,197-98. A year later, the Court, however,
held that a man of South Asian descent born in India did not qualify as a
la many scientific authorities at
the time considered South Asians to be members of the Caucasian race.
United States v. Thind, 261 U.S. 204,210-15 (1923); see also Gong Lunt
v. Rice, 275 U.S. 78 (1927) (upholding a state court ruling requiring an
American citizen of Chinese descent to attend school for "colored"
children and not for white children).

DAVIS V. GUAM

27

at 514-15." These various concepts remain somewhat
distinct, but all embrace the core concept of a group of
people distinguished based on certain identifiable traits.
Just as race is a difficult concept to define, so is
ancestry's precise relationship to race. Ancestry identifies
individuals by biological descent. See Ancestry, Black's Law
Dictionary (10th ed. 2014) ("A line of descent; collectively,
a person's forebears; lineage."); Ancestor, Oxford English
Dictionary (2d ed. 1989) ("One from whom a person is
descended, either by the father or mother; a progenitor, a
forefather."). Racial categories often incorporate biological
descent, as the mechanism through which present day
individuals viewed as a distinct group are thought to be
connected to an earlier set of individuals with identifiable
physical, ethnic, or cultural characteristics. For example,
state laws mandating the enslavement and later segregation
and subjugation of African Americans identified them by the
percentage of blood they possessed from African American
ancestors. See, e.g., Loving v. Virginia, 388 U.S. 1, 5 n.4
(1967); Plessy v. Ferguson, 163 U.S. 537, 552 (1896); Neil
Gotanda„4 Critique of "Our Constitution Is Color-Blind,"
1° See also Hernandez v. State of Tex., 347 U.S. 475, 478 (1954)
("Throughout our history differences in race and color have defined
easily identifiable groups which have at times required the aid of the
courts in securing equal treatment under the laws. But community
prejudices are not static, and from time to time other differences from
the community norm may define other groups which need the same
protection. Whether such a group exists within a community is a question
of fact.");
, k•--Vit.— ffircrt's—Ilair (and Other RaceBased Characteristics) Got to Do With It?, 79 U. Colo. L. Rev. 1355,
1385 (2008) ("Race includes physical appearances and behaviors that
society, historically and presently, commonly associates with a particular
racial group, even when the physical appearances and behavior are not
`uniquely' or `exclusively' performed' by, or attributed to a particular
racial group.").

28

DAVIS V. GUAM

44 Stan. L. Rev. 1, 24 n.94 (1991). Until 1952, Congress
imposed racial restrictions on who could be naturalized as
citizens. See 8 U.S.C. § 703 (repealed 1952). Among those
eligible for naturalization were "white persons, persons of
African nativity or descent, and persons who are descendants
of races indigenous to the continents of North or South
America," as well as those with a "preponderance of blood"
from those groups. Id. § 703(a)(1), (2). Race and ancestry
thus frequently overlap or are treated as equivalents by
courts. See, e.g., Hirabayashi v. United States, 320 U.S. 81,
100 (1943) ("Distinctions between citizens solely because of
their ancestry are by their very nature odious to a free people
whose institutions are founded upon the doctrine of equality.
For that reason, legislative classification or discrimination
based on race alone has often been held to be a denial of
equal protection.").
But ancestry and race are not identical legal concepts.
State and federal laws are replete with provisions that target
individuals based on biological descent without reflecting
racial classifications. These include laws of intestate
succession, see, e.g., Ariz. Rev. Stat. § 14-2103 (requiring
passing of property based on lineage in the absence of a
surviving spouse); Cal. Prob. Code §§ 240, 6402 (same);
Unif. Prob. Code § 2-103 (Nat'l Conference of Comm'rs on
Unif. State Laws 2010) (same); see also Hodel v. Irving,
481 U.S. 704, 716 (1987) ("In one form or another, the right
to pass on property—to one's family in particular—has been
part of the Anglo-American legal system since feudal
„ .g.,
:S.C. §§ 1431, 1433
(conferring citizenship on children born outside the United
States if at least one parent is a U.S. citizen); id. § 1153
(immigrant visa preferences for children of U.S. citizens and
lawful permanent residents); and child custody laws, see,
e.g., Haw. Rev. Stat. § 571-46(7) (providing visitation

DAVIS V. GUAM

29

privileges for "parents, grandparents, and siblings" of child).
As Justice Stevens observed in his dissent in Rice, "There
would be nothing demeaning in a law that established a trust
to manage Monticello and provided that the descendants of
Thomas Jefferson should elect the trustees." 528 U.S. at 545
& n.16.11
Moreover, the Supreme Court has squarely rejected any
categorical equivalence between ancestry and racial
categorization. Morton v. Mancari, 417 U.S. 535 (1974),
upheld a Bureau of Indian Affairs hiring preference for
"Indians," defined as an individual possessing "one-fourth
or more degree Indian blood and be a member of a Federallyrecognized tribe." 417 U.S. at 553 n.24. Although the hiring
preference classified individuals based on biological
ancestry, the Supreme Court concluded that the
classification was "political rather than racial in nature." Id.
Mancari determined that the hiring preference treated
"Indians not as a discrete racial group, but, rather, as
members of quasi-sovereign tribal entities," stressing the
"unique legal status of Indian tribes under federal law and
. . . the plenary power of Congress, based on a history of
treaties and the assumption of a 'guardian-ward' status, to
legislate on behalf of federally recognized Indian tribes." Id.
at 551, 554.
Since Mancari, the Supreme Court and our court have
reaffirmed ancestral classifications related to American
Indians without suggesting that they constitute racial
classifications. See Del. Tribal Bus. Comm. v. Weeks,
11 See also Sarah Krakoff, They Were Here First: American Indian
Tribes, Race, and the Constitutional Minimum, 69 Stan. L. Rev. 491, 496
n.21 (2017) (collecting "laws [that] recognize and honor ancestry"
outside the Indian law context).

30

DAVIS V. GUAM

430 U.S. 73, 79 n.13, 89 (1977); United States v. Zepeda,
792 F.3d 1103, 1110 (9th Cir. 2015) (en banc); see also Doe
v. Kamehameha Schs./Bernice Pauahi Bishop Estate,
470 F.3d 827, 851-52 (9th Cir. 2006) (en banc) (Fletcher, J.,
concurring) (listing federal laws concerning Indians that rely
on ancestry); Krakoff, supra, at 501 (explaining that
American Indian tribal status "assumes ancestral ties to
peoples who preceded European (and then American)
arrival"). This well-settled law regarding classifications of
American Indians confirms that not all ancestral
classifications are racial ones.
In sum, biological descent or ancestry is often a feature
of a race classification, but an ancestral classification is not
always a racial one.
C
That ancestry is not always a proxy for race does not
mean it never is.
We have previously outlined the contours of proxy
discrimination when addressing statutory discrimination
claims:
Proxy discrimination is a form of facial
discrimination. It arises when the defendant
enacts a law or policy that treats individuals
differently on the basis of seemingly neutral
criteria that are so closely associated with the
disfavored group that discrimination on the
basis of such criteria is, constructively, facial
discrimination against the disfavored group.
For example, discriminating against
individuals with gray hair is a proxy for age
discrimination because "the 'fit' between age

DAVIS V. GUAM

31

and gray hair is sufficiently close."McWright
v. Alexander, 982 F.2d 222, 228 (7th Cir.
1992).
Pac. Shores Props., LLC v. City of Newport Beach, 730 F.3d
1142, 1160 n.23 (9th Cir. 2013). The Supreme Court has
recognized that "[a]ncestry can be a proxy for race" in the
Fifteenth Amendment context. Rice, 528 U.S. at 514; see
Commonwealth Election Comm'n, 844 F.3d at 1092. Guinn
v. United States, for example, held that although an
exemption to a voting literacy test did not expressly classify
by race, "the standard itself inherently brings that result into
existence." 238 U.S. 347, 364-65 (1915).12 Although proxy
discrimination does not involve express racial
classifications, the fit between the classification at issue and
the racial group it covers is so close that a classification on
the basis of race can be inferred without more.13 For that
reason, proxy discrimination is "a form of facial
discrimination." Pac. Shores Props., 730 F.3d at 1160 n.23.
Notably, proxy discrimination does not require an exact
match between the proxy category and the racial
classification for which it is a proxy. "Simply because a class
. . . does not include all members of the race does not suffice
to make the classification race neutral." Rice, 528 U.S.
at 516-17. In Rice the classification at issue—though not
explicitly racial—was so closely intertwined with race,
given the characteristics of Hawaii's population in 1778, that
12 See also Stephen M. Rich, Inferred Classifications, 99 Va. L. Rev.
1525, 1532 (2013) (discussing how the Supreme Court has inferred facial
racial classifications based on a "legislation's form and practical effect").
13 We do not address whether ancestry can be a proxy for race in
contexts beyond the scope of the Fifteenth Amendment.

32

DAVIS V. GUAM

the law was readily understood to be discriminatory in
"purpose and operation." Id. at 516. At its core, Rice inferred
the racial purpose of the Hawaii law from the terms of the
classification combined with historical facts, concluding that
Hawaii's racial voter qualification was "neither subtle nor
indirect." Id. at 514.
Relying on Rice, we held in Davis v. Commonwealth
Election Comm'n that an ancestry-based voting restriction in
the Commonwealth of the Northern Mariana Islands
("CNMI") was a proxy for race discrimination in violation
of the Fifteenth Amendment. 844 F.3d at 1093.
Commonwealth Election Commission concerned a provision
of the CNMI Constitution limiting voting in certain CNMI
elections to U.S. citizens or nationals "who [are] of at least
one-quarter Northern Marianas Chamorro or Northern
Marianas Carolinian blood," a classification defined as
someone who was "born or domiciled in the Northern
Mariana Islands by 1950 and . . . a citizen of the Trust
Territory of the Pacific Islands before the termination of the
Trusteeship with respect to the Commonwealth." Id. at 1090
(quoting N. Mar. I. Const. art XII, § 4). We concluded that
"the stated intent of the provision [was] to make ethnic
distinctions," even though the provision was technically
tethered to an ancestor's residence in 1950, and even though
there was "historical evidence that some persons who were
not of Chamorro or Carolinian ancestry lived on the islands
in 1950." Id. at 1093 (emphasis added). We reasoned that the
voter qualification at issue "tie[d] voter eligibility to descent
from an ethnic group;" the qualification "referenced blood
quantum to determine descent" much like the Hawaiian law
invalidated in Rice; and the statute implementing the
classification referenced race. Id. As in Rice, the CNMI law
left no reasonable explanation for the voting qualifications
except that voter eligibility was race-based.

DAVIS V. GUAM

33.

D
Like the classifications invalidated in Rice and
Commonwealth Election Commission, the classification
"Native Inhabitants of Guam" in this case serves as a proxy
for race, in violation of the Fifteenth Amendment. The 2000
Plebiscite Law limits voting to "Native Inhabitants of
Guam," which it defines as "those persons who became U.S.
Citizens by virtue of the authority and enactment of the 1950
Organic Act of Guam and descendants of those persons."
3 Guam Code Ann. § 21001(e). The Organic Act granted
U.S. citizenship to three categories of people and their
descendants. In summary, those categories are:
Individuals born before April 11, 1899, who
lived in Guam on that date as Spanish
subjects, and who continued to reside in some
part of the U.S. thereafter.
Individuals born in Guam before April 11,
1899, who lived in Guam on that date, and
who continued to reside in some part of the
U.S. thereafter.
Individuals born in Guam on or after
April 11, 1899.
8 U.S.C. § 1407 (1952). This definition is so closely
associated with the express racial classification "Chamorro"
used in previously enacted statutes that it can only be

34

DAVIS V. GUAM

sensibly understood as a proxy for that same racial
classification.14
The 2000 Plebiscite Law's immediate predecessors were
not shy about using an express racial classification. The
Registry Act established an official list of "Chamorro"
people, defined according to the Organic Act, as inhabitants
of Guam in 1899 who were Spanish subjects or were born in
Guam before 1899, and the descendants of those individuals.
Registry Act § 20001(a). In its legislative findings and
statement of intent, the Registry Act provided: "The Guam
Legislature recognizes that the indigenous people of Guam,
the Chamorros, have endured as a population with a distinct
language and culture despite suffering over three hundred
years of colonial occupation by Spain, the United States of
America, and Japan." Id. § 1. It further stated: "The Guam
Legislature . . . endeavors to memorialize the indigenous
Chamorro people . . . who continue to develop as one
Chamorro people on their homeland, Guam." Id. Finally, the
Registry Act recognized that "[t]he Legislature intends for
this registry to assist in the process of heightening local
awareness among the people of Guam of the current struggle
for Commonwealth, of the identity of the indigenous
Chamorro people of Guam, and of the role that Chamorros
and succeeding generations play in the island's cultural
survival and in Guam's political evolution towards selfgovernment." Id. As part of those purposes, the law
recognized that the registry may be used "for the future

14 Guam acknowledged in the district court that the term
"Chamorro" refers to a distinct racial category and does not seriously
contest otherwise on appeal. We have similarly recognized "Chamorro"
as a racial classification for Fifteenth Amendment purposes. See
Commonwealth Election Comm'n, 844 F.3d at 1093 (treating "Northern
Marianas Chamorro" as a racial classification).

DAVIS V. GUAM

35

exercise of self-determination by the indigenous Chamorro
people of Guam." Id.
The Registry Act formally tied the definition of
Chamorro to the race-neutral language of the Organic Act.
But the enactment as a whole rested on the concept that the
Chamorro were a "distinct people" with a "common
culture," the very hallmarks of racial classification Rice
relied upon in concluding that "Hawaiian" defined a racial
group for Fifteenth Amendment purposes. See 528 U.S.
at 514-15.
The 1997 Plebiscite Law, which the 2000 Plebiscite Law
built directly upon, similarly employed express racial
classifications. The 1997 law called for a plebiscite limited
to the "Chamorro people of Guam," defined as 141
inhabitants of Guam in 1898 and their descendants who have
taken no affirmative steps to preserve or acquire foreign
nationality." 1997 Plebiscite Law § 2(b). Like the Registry
Act, the 1997 Plebiscite Law repeatedly employed the term
"Chamorro" to note a distinct group and described that group
as facing "colonial discrimination" and "long-standing
injustice." Id. § 1.
Additionally, the Guam legislature has long defined the
term "Native Chamorro" for purposes of the Chamorro Land
Trust Commission to include "any person who became a
U.S. citizen by virtue of the authority and enactment of the
Organic Act of Guam or descendants of such person." Guam
Pub. L. No. 15-118 (1980) (codified at 21 Guam Code Aim.
§ 75101(d)). The CLTC qualifies Native Chamorros to lease
land the United States previously seized from Guam's
inhabitants during and after World War II and later returned
to the Guam government. After passage of the 2000
Plebiscite Law, the Guam legislature enacted a law
providing that individuals who receive a lease or were

36

DAVIS V. GUAM

preapproved for one through the CLTC are automatically
registered in the Guam Decolonization Registry, thereby
qualifying them to vote in the plebiscite. 3 Guam Code Ann.
§ 21002.1.
Several similarities between the 2000 Plebiscite Law and
its predecessors reveal that "Native Inhabitants of Guam" is
a proxy for "Chamorro," and therefore for a racial
classification. First, the 2000 Plebiscite Law's definition of
"Native Inhabitants of Guam" is nearly indistinguishable
from the definitions of "Chamorro" in the Registry Act, the
1997 Plebiscite Law, and the CLTC. "Native Inhabitants of
Guam" incorporates all the citizenship provisions of the
Organic Act, as does the definition of "Native Chamorro" in
the CLTC; the Registry Act and the 1997 Plebiscite Law
mirror the first two sections of those provisions. Compare
2000 Plebiscite Law § 21001(e); 21 Guam Code Ann.
§ 75101(d); Registry Act § 20001(a); 1997 Plebiscite Law
§ 2(b), with 8 U.S.C. § 1407 (1952).15 That Guam applies
15 The Registry Act's and the 1997 Plebiscite Law's definition of
"Chamorro" do not incorporate the third citizenship provision of the
Organic Act, which grants citizenship to individuals born in Guam on or
after April 11, 1899. 8 U.S.C. § 1407(b) (1952). Because the INA
replaced the citizenship provisions of the Organic Act in 1952, see
Immigration and Nationality Act of 1952, Pub. L. No. 82-414,
§ 403(a)(42), 66 Stat. 163, 280, this third provision uniquely includes
only individuals who were born in Guam between 1899 and 1952 but
were not descendants of individuals residing in Guam before 1899. The
inclusion of this third provision into the definition of "Native Inhabitants
of Guam" does not meaningfully differentiate the term "Native
Inhabitants of Guam" from the term "Chamorro." Even including the
third citizenship provision of the Organic Act, it appears that as of 1950
98.6% of people who were non-citizen nationals, and thereby likely
received citizenship pursuant to the Organic Act, were categorized as
"Chamorro." See 1950 Census at 54-49 tbl. 38.

DAVIS V. GUAM

37

nearly identical definitions to the terms "Chamorro," a racial
category, and "Native Inhabitants of Guam" indicates that
these terms are interchangeable. The closeness of the
association is sufficient to conclude that the term "Native
Inhabitants of Guam" is a proxy for the "Chamorro"
classification.
Second, the 2000 Plebiscite Law maintains nearly
identically the features of the facially race-based Registry
Act and the 1997 Plebiscite Law. This continuity confirms
the 2000 Plebiscite Law's changes to the Chamorro
classification were semantic and cosmetic, not substantive.16
The 2000 Plebiscite Law creates a "Guam
Decolonization Registry" that mirrors the earlier Registry
Act. The new registry is structured similarly to the earlier
one, including requiring an affidavit to register, compare
2000 Plebiscite Law § 21002, with Registry Act § 20002;
administering the registry through the Guam Election
Commission, compare 2000 Plebiscite Law § 21001(d), with
Registry Act § 20001(c); and criminalizing false
registration, compare 2000 Plebiscite Law § 21009, with
Registry Act § 20009.
The 2000 Plebiscite Law also amends the 1997 Plebiscite
Law to eliminate references to "Chamorro" people, but
otherwise retains the same features. See 2000 Plebiscite Law
§§ 7, 9-11. Both statutes establish non-binding elections on
16 The 2000 Plebiscite Law slightly changed the definition of
"Chamorro" in the Registry Act to include individuals born in Guam
prior to 1800 and their descendants. See 2000 Plebiscite Law § 12; supra,
n.4. However, this post-hoc revision does not change the near identical
resemblance between the definitions of "Native Inhabitants of Guam" in
the 2000 Plebiscite Law and the original definition of "Chamorro" in the
Registry Act.

38

DAVIS V. GUAM

Guam's future political status relationship with the United
States, the results of which will be transmitted to the federal
government and to the United Nations. Compare 2000
Plebiscite Law §§ 10-11, with 1997 Plebiscite Law §§ 5, 10.
Given the similarity in the substantive provisions and in the
definitions of "Chamorro" and of "Native Inhabitants of
Guam," the substitution of terms does not erase the 1997
Plebiscite Law's premise for the voting restriction—to treat
the Chamorro as a "distinct people." Rice, 528 U.S. at 515.
Finally, the timing of the 2000 Plebiscite Law's
enactment confirms its racial basis. The 2000 Plebiscite Law
was enacted on March 24, 2000, just one month after Rice
was decided. In Rice, Hawaii had revised its definition of
"Hawaiian" from an earlier version, by replacing the word
"races" with "peoples." Id. at 515-16. The Supreme Court
concluded based on the drafters' own admission that "any
changes to the language were at most cosmetic." Id. at 516.
Although we have no similar admission, the same is true
here. After Rice, Guam's swift reenactment of essentially the
same election law—albeit with a change in terms—indicates
that the Guam legislature's intent was to apply cosmetic
changes rather than substantively to alter the voting
restrictiors for the plebiscite.
Guam's primary argument to the contrary is that "Native
Inhabitants of Guam" is not a racial category but a political
one referring to "a colonized people with a unique political
relationship to the United States because their U.S.
citizenship was granted by the Guam Organic Act." It
attempts to distinguish this case from Rice on the ground that
the voter qualification here is tethered not to presence in the
Territory at a particular date but to the passage of a specific
law—the Organic Act—which altered the legal status of the
group to which the ancestral inquiry is linked.

DAVIS V. GUAM

39

But indirect or tiered racial classifications, tethered to
prior, race-based legislative enactments, are subject to the
same Fifteenth Amendment proscription on race-based
voting restrictions as are explicitly racial classifications. In
Guinn, the Supreme Court invalidated an Oklahoma
constitutional amendment that established a literacy
requirement for voting eligibility but exempted the "lineal
descendant[s]" of persons who were "on January 1,1866, or
at any time prior thereto, entitled to vote under any form of
government, or who at that time resided in some foreign
nation." 238 U.S. at 356-7. That classification, like the one
at issue here, was facially tethered to specific laws—the
voter eligibility laws in existence in 1866 before the
Fifteenth Amendment was ratified. In that year, only eight
northern states permitted African Americans to vote. See
Benno C. Schmdit, Jr., Principle and Prejudice: The
Supreme Court and Race in the Progressive Era Part 3,
82 Colum. L. Rev. 835, 862 (1982). Guinn held the
challenged Oklahoma voting qualification incorporated—
without acknowledging their racial character—a set of
former race-based statutory restrictions. 238 U.S. at 364-65.
In essence, the Court recognized that Oklahoma was
reviving its earlier race-based voting restrictions, thereby
violating the Fifteenth Amendment.
Nor is Guam's argument that the classification here is
political supported by the Supreme Court's recognition that
classifications based on American Indian ancestry are
political in nature. Laws employing the American Indian
classification targeted individuals "not as a discrete racial
group, but, rather, as members of quasi-sovereign tribal
entities." Mancari, 417 U.S. at 554; see also Rice, 528 U.S.

40

DAVIS V. GUAM

at 518-20; United States v. Antelope, 430 U.S. 641 (1977).17
Both the Supreme Court and we have rejected the
application of Mancari for Fifteenth Amendment purposes
with respect to non-Indian indigenous groups, namely those
in Hawaii and the CNMI respectively. See Rice, 528 U.S. at
518-20; Comntonwealth Election Comm'n, 844 F.3d at
1094.18 Nothing counsels a different result in this case.
Here, the parallels between the 2000 Plebiscite Law and
previously enacted statutes expressly employing racial
classifications are too glaring to brush aside. The near
identity of the definitions for "Native Inhabitants of Guam"
and "Chamorro," the lack of other substantive changes, and
17 Although Mancari's rationale was premised on the recognized
quasi-sovereign tribal status of Indians, "the Supreme Court has not
insisted on continuous tribal membership, or tribal membership at all, as
a justification for special treatment of Indians," and neither has
Congress. Kamehatneha Schs., 470 F.3d at 851 (Fletcher, J., concurring)
(collecting cases and statutes).
18 Because we affirm the district court on Fifteenth Amendment
grounds, we reserve judgment on whether the Mancari exception may
apply to the "Native Inhabitants of Guam" classification outside the
Fifteenth Amendment context. Rice, which rejected the application of
Mancari to Hawaiians for Fifteenth Amendment purposes, was careful
to confine its analysis to voting rights under that amendment. It stated
that "Nile validity of the voting restriction is the only question before
us," 528 U.S. at 521, and emphasized the unique character of voting
rights under the Fifteenth Amendment. Id. at 512, 523-24; cf.
Commonwealth Election Comm 'n, 844 F.3d at 1095 ("[L]imits on who
may own land are quite different—conceptually, politically, and
legally—than limits on who may vote in elections to amend a
constitution."); Katnehatneha Schs., 470 F.3d at 853 (Fletcher, J.,
concurring) (arguing that Native Hawaiians are a political—and not
racial—classification for Fourteenth Amendment purposes because, in
part, "[u]nlike Rice, the case before us does not involve preferential
voting rights subject to challenge under the Fifteenth Amendment").

DAVIS V. GUAM

41

the timing of the 2000 Plebiscite Law's enactment all
indicate that the Law rests on a disguised but evident racial
classification.
* * * *

Concluding that the 2000 Plebiscite Law employs a
proxy for race is not to equate Guam's stated purpose of
"providing dignity in . . . allowing a starting point for a
process of self-determination" to its native inhabitants with
the racial animus motivating other laws that run afoul of the
Fifteenth Amendment, see, e.g., Gornillion, 364 U.S. at 347;
Guinn, 238 U.S. at 364-65. Our decision makes no judgment
about whether Guam's targeted interest in the selfdetermination of its indigenous people is genuine or
compelling. Rather, our obligation is to apply established
Fifteenth Amendment principles, which single out voting
restrictions based on race as impermissible whatever their
justification. Just as a law excluding the Native Inhabitants
of Guam from a plebiscite on the future of the Territory
could not pass constitutional muster, so the 2000 Plebiscite
Law fails for the same reason.
IV
We hold that Guam's limitation on the right to vote in its
political status plebiscite to "Native Inhabitants of Guam"
violates the Fifteenth Amendment and so AFFIRM the
district court's summary judgement order.

EXHIBIT 2

No. 13-15199
United States Court of Appeals, Ninth Circuit.

Davis v. Guam
785 F.3d 1311 (9th Cir. 2015)
Decided May 8, 2015

KOZINSKI, Circuit Judge
1.312*1312 Douglas

R. Cox, Scott P. Martin (argued) and
C. Maleck, Gibson, Dunn *1313 & Crutcher
LLP, Washington, D.C., Michael E. Rosman,
Center for Individual Rights, Washington, D.C.,
Mun Su Park, Law Offices of Park and Associates,
Tamuning, GU, and J. Christian Adams, Election
Law Center, PLLC, Alexandria, VA, for Plaintiff—
Appellant.

131. 3 Marisa

Leonardo M. Rapadas, Attorney General, and
Robert M. Weinberg, Assistant Attorney General
(argued), Office of the Attorney General of Guam,
Tamuning, GU, for Defendants—Appellees.
Meriem L. Hubbard, Joshua P. Thompson and
Jonathan Wood, Pacific Legal Foundation,
Sacramento, CA, for Amicus Curiae Pacific Legal
Foundation.
Julian Aguon, Law Office of Julian Aguon,
Hagatna, GU, for Amicus Curiae Anne Perez
Hattori.
Appeal from the United States District Court for
the District of Guam, Frances Tydingco—
Gatewood, Chief District Judge, Presiding. D.C.
No. 1:11—cv-00035.
Before: MARY M. SCHROEDER, ALEX
KOZINSKI, and N. RANDY SMITH, Circuit
Judges.
Opinion by Judge KOZINSKI ; Dissent by Judge
N.R. SMITH.

OPINION

Pursuant to a law passed by the Guam legislature,
eligible "Native Inhabitants of Guam" may
register to vote in a plebiscite concerning Guam's
future political relationship with the United States.
Guam will conduct the plebiscite if and when 70
percent of eligible Native Inhabitants register.
Plaintiff Arnold Davis is a Guam resident who
isn't eligible to register because he is not a Native
Inhabitant. He alleges that Guam's Native
Inhabitant classification is an unlawful proxy for
race. At this stage, we must determine only
whether Davis has standing to challenge the
classification and whether his claims are ripe.

I. BACKGROUND
Guam law directs the territory's Commission on
Decolonization to "ascertain the intent of the
Native Inhabitants of Guam as to their future
political relationship with the United States of
America." 1 Guam Code Ann. § 2105. The same
law also provides for a "Political Status
Plebiscite." Id. § 2110. The plebiscite would ask
eligible Native Inhabitants to choose among three
options: (1) "Independence," (2) "Free
Association with the United States of America" or
(3) "Statehood." Id. It would be conducted by
Guam's Election Commission on the same day as
a general election. Id. The Commission on
Decolonization would then be required to transmit
the plebiscite's results to the President, Congress
and the United Nations as reflecting "the intent of
the Native Inhabitants of Guam as to their future
political relationship with the United States." Id. §
2105.

KOZINSKI, Circuit Judge:

casetext

1

Davis v, Guam 785 F.3d 1311 (9th Cir. 2015)
Guam will hold the plebiscite if and when 70
percent of all eligible Native Inhabitants1 register

2 The Organic Act extends the rights

the Guam Decolonization *1314 Registry. 1
Guam Code Ann. § 2110 ; 3 Guam Code Ann. §§
21000, 21003. Native Inhabitants aren't required
to register, although some will be registered
automatically unless they submit a written request
not to be registered. 3 Guam Code Aim. §
21002.1. Guam reports that the 70 percent
threshold isn't close to being met. Thus, Guam
hasn't set a date for the plebiscite and perhaps
never will.

provisions to Guam, including the Fifth

1314with

Guam law defines "Native Inhabitants" as

afforded by several constitutional
Amendment, the Equal Protection Clause
of the Fourteenth Amendment and the
Fifteenth Amendment. 48 U.S.C. §
142 lb(u) ; Guam v. Guerrero, 290 F.3d
1210, 1214-15 (9th Cir.2002). The Organic
Act also contains its own antidiscrimination provisions. See, e.g., 48
U.S.C. § 142 lb(n). The Voting Rights Act
applies to Guam, a U.S. territory. 52 U.S.C.
§ 10101(a)(1) (formerly 42 U.S.C. §
1971(a)(1) ).

persons who became U.S. citizens by
virtue of the Guam Organic Act of 1950
and their descendants. 1 Guam Code Ann.
§ 2102. The Organic Act granted
citizenship to three classes of persons: (1)
Spanish subjects who inhabited Guam on
April 11, 1899, when Spain ceded Guam to
the United States in the Treaty of Paris
(and their children); (2) persons who were
born on Guam and resided there on April
11, 1899 (and their children); and (3)
persons born on Guam on or after April 11,
1899, when Guam was subject to U.S.
jurisdiction. See Organic Act of Guam,

The district court held that Davis lacks standing
and his claims are unripe. According to the district
court, Davis hasn't been injured because "there is
no discernible future election in sight." "To suffer
a real discernible injury," the district court held,
Guam's restriction on voter registration to Native
Inhabitants "would have to be, by necessity,
related to an election that is actually scheduled."
We have jurisdiction pursuant to 28 U.S.C. § 1291
and review de novo. Bova v. City of Medford, 564
F.3d 1093, 1095 (9th Cir.2009).

Pub.L. No. 630, 64 Stat. 384, 384 (Aug. 1,
1950).

Davis tried to register with the Decolonization
Registry, but the application was rejected because
Davis isn't a Native Inhabitant. Davis agrees he's
not a Native Inhabitant but claims that the Native
Inhabitant classification violates the Fifth,
Fourteenth and Fifteenth Amendments, as well as
the Voting Rights Act and the Guam Organic Act2
because it is a "proxy for race." Davis seeks a
declaration that limiting registration to Native
Inhabitants is unlawful, and an injunction against
using any registry other than Guam's general voter
registry in determining who's eligible to register
for, and vote in, the plebiscite.

casetext

II. STANDING AND RIPENESS
To "satisfy the standing requirements imposed by
the 'case' or 'controversy' provision of Article
III," Davis must show that he has suffered, or will
imminently suffer, a "concrete and particularized"
injury to a "judicially cognizable interest:" Bennett
v. Spear, 520 U.S. 154, 167, 117 S.Ct. 1154, 137
L.Ed.2d 281 (1997) ; see also Lujan v. Defenders
of Wildlife, 504 U.S. 555, 560-61, 112 S.Ct. 2130,
119 L.Ed.2d 351 (1992). That injury must be
"fairly traceable to the challenged action of the
defendant[s]," and it must appear likely that the
injury would be prevented or redressed by a
favorable decision. Bennett, 520 U.S. at 167, 117
S.Ct. 1154 ; see also Allen v. Wright, 468 U.S.
737, 751, 104 S.Ct. 3315, 82 L.Ed.2d 556 (1984).
When determining Article III standing we "accept

2

Davis v. Guam 785 F.3d 1311 (9th Cir. 2015)
as true all material allegations of the complaint"
and "construe the complaint in favor of the
complaining party." Maya v. Centex Corp., 658
F.3d 1060, 1068 (9th Cir.2011) (quoting Warth v.
Seldin, 422 U.S. 490, 501, 95 S.Ct. 2197, 45
L.Ed.2d 343 (1975) ).
Guam law gives some of its voters the right to
participate in a registration process that will
determine whether a plebiscite will be held. Davis
alleges that the law forbids him from participating
on the basis of his race. Davis's allegation—that
Guam law provides a benefit to a class of persons
that it denies him—is "a type of personal injury
[the Supreme Court has] long recognized as
judicially cognizable." Heckler v. Mathews, 465
U.S. 728, 738, 104 S.Ct. 1387, 79 L.Ed.2d 646
(1984). The plaintiff in Mathews challenged a
1315provision *1315of the Social Security Act that
required certain male workers (but not female
workers) to make a showing of dependency as a
condition for receiving full spousal benefits. Id. at
731-35, 104 S.Ct. 1387. The statute, however,
"prevent[ed] a court from redressing this
inequality by increasing the benefits payable to"
the male workers. Id. at 739, 104 S.Ct. 1387.
Thus, the lawsuit couldn't have resulted in any
tangible benefit to Mathews. The Supreme Court
nevertheless held that Mathews had standing to
challenge the provision because he sought to
vindicate the "right to equal treatment," which
isn't necessarily "coextensive with any substantive
rights to the benefits denied the party
discriminated against." Id.; see also Allen, 468
U.S. at 762, 104 S.Ct. 3315 ; 13A Charles Alan
Wright, Arthur R. Miller & Edward H. Cooper,
Federal Practice & Procedure §§ 3531.4 at 21516, 3531.6 at 454-56 (3d ed.2008). We read
Mathews as holding that equal treatment under
law is a judicially cognizable interest that satisfies
the case or controversy requirement of Article III,
even if it brings no tangible benefit to the party
asserting it. Guam's alleged denial of equal
treatment to Davis is thus a judicially cognizable
injury.

casetext

Guam concedes that its law excludes Davis from
the registration process because he's not a Native
Inhabitant. It argues, however, that the Native
Inhabitant classification can't injure Davis because
the plebiscite is "not self executing and effects no
change in political status, right, benefit or
privilege for any individual." But this contradicts
Mathews, which held that unequal treatment is an
injury even if curing the inequality has no tangible
consequences. 465 U.S. at 739, 104 S.Ct. 1387.
Moreover, Guam understates the effect of any
plebiscite that would be held if the registration
threshold were triggered. After the plebiscite, the
Commission on Decolonization would be required
to transmit the results to the President, Congress
and the United Nations, 1 Guam Code Ann. §
2105, thereby taking a public stance in favor of
whatever outcome is favored by those voting in
the plebiscite.' If the plebiscite is held, this would
make it more likely that Guam's relationship to the
United States would be altered to conform to that
preferred outcome, rather than one of the other
options presented in the plebiscite, or remaining a
territory. This change will affect Davis, who
doubtless has views as to whether a change is
appropriate and, if so, what that change should be.
Guam law thus does provide a tangible benefit to
Native Inhabitants that Davis alleges he is
unlawfully denied: the right to help determine
whether a plebiscite is held. This is not unlike the
right to participate in jury service, which may not
be denied on a constitutionally unequal basis. See
Batson v. Kentucky, 476 U.S. 79, 87, 106 S.Ct.
1712, 90 L.Ed.2d 69 (1986) (citing Carter v. Jury
Comm'n of Greene Cnty., 396 U.S. 320, 329-30,
131690 S.Ct. 518, 24 L.Ed.2d 549 (1970) ).4 *1316
Davis's challenge to the Native Inhabitant
classification is also ripe because he alleges he's
currently being denied equal treatment under
Guam law. The registration process is ongoing and
Guam must hold the plebiscite if 70 percent of
eligible Native Inhabitants register. By being
excluded from the registration process, Davis
claims he is unlawfully denied a right currently
enjoyed by others: to help determine whether a

3

Davis v. Guam 785 F.3d 1311 (9th Cir. 2015)
plebiscite will be held. The ripeness question thus
"coincides squarely with standing's injury in fact
prong." Bova, 564 F.3d at 1096 (quoting Thomas
v. Anchorage Equal Rights Comm'n, 220 F.3d
1134, 1138 (9th Cir.2000) (en bane)); see also 13B
Federal Practice & Procedure § 3531.12 at 163.
3 The U.S. House of Representatives, for
one, has indicated that it has open ears. In a
1998 resolution, it acknowledged the
Commission on Decolonization and
"reaffirm[ed] its commitment to the United
States citizens of Guam for increased selfgovernment, consistent with selfdetermination for the people of Guam."
H.R. Res. 494, 105th Cong., 144 Cong.
Rec. 25922, 25922-23 (1998).
4

Although Batson involved a criminal
defendant's challenge to his conviction, the
Court reiterated its holding in Carter that
when a state "den[ies] a person
participation in jury service on account of
his race, the [s]tate unconstitutionally
discriminate[s] against the excluded juror."
Batson, 476 U.S. at 87, 106 S.Ct. 1712 ;
see also Carter, 396 U.S. at 329, 90 S.Ct.
518 ("People excluded from juries because
of their race are as much aggrieved as
those indicted and tried by juries chosen
under a system of racial exclusion.").
Whether participation in Guam's
registration process is "deemed a right, a
privilege, or a duty," Guam must "hew to
federal constitutional criteria" when
determining who is eligible to register. Id.
at 330, 90 S.Ct. 518.

Guam maintains that its plebiscite law does not, in
fact, violate Equal Protection, the Fifteenth
Amendment or the Voting Rights Act. But we
need not resolve these issues to determine whether
Davis's claims satisfy the case or controversy
requirement of Article III. These are merits

casetext

questions, and standing doesn't "depend[ ] on the
merits of the plaintiffs contention that particular
conduct is illegal." Warth, 422 U.S. at 500, 95
S.Ct. 2197.

CONCLUSION
Davis's challenge to Guam's registration restriction
asserts a judicially cognizable injury that would be
prevented or redressed if the district court were to
grant his requested relief. Davis therefore has
Article III standing to pursue his challenge to
Guam's alleged race-based registration
classification. The claim is ripe because Davis
alleges he is currently subject to unlawful unequal
treatment in the ongoing registration process.
Therefore, we need not decide whether any of the
other injuries Davis alleges follow from Guam's
Native Inhabitant restriction would be sufficient to
confer standing independently. In particular, we
express no view as to whether the challenged law
resulted in the type of "stigmatizing" harm that
we've held may be a judicially cognizable injury
in the Establishment Clause context. See Catholic
League v. City & Cnty. of S.F. 624 F.3d 1043,
1052-53 (9th Cir.2010) (en bane). Nor do we
decide whether an alleged violation of the Voting
Rights Act is itself a judicially cognizable injury.
In the district court, Davis also sought to enjoin
Leonardo Rapadas, the Attorney General of
Guam, from enforcing a provision of Guam's
criminal law that makes it a crime for a person
who knows he's not a Native Inhabitant to register
for the plebiscite. See 3 Guam Code Ann. §
21009. The district court held that Davis lacked
standing to seek this injunction because he had not
"shown that he is subject to a genuine threat of
imminent prosecution." While Rapadas is still
listed as a nominal defendant on appeal, Davis
doesn't argue that the district court erred in
dismissing this claim. Therefore, any claim of
error is waived. See Wagner v. Cnty. of Maricopa,
747 F.3d 1048, 1059 (9th Cir.2013).

4

Davis v. Guam 785 F.3d 1311 (9th Cir. 2015)

We decline Davis's suggestion that we reach the
merits of his claims in the event we find his claims
to be justiciable. Instead we leave it to the district
court to consider the merits of Davis's non-waived
claims in the first instance.

AFFIRMED in part, REVERSED in
part, and REMANDED.
Appellees other than Rapadas shall pay costs
on appeal. Rapadas shall recover his costs, if
1317any, from Davis. *I317N.R. SMITH, Circuit
Judge, dissenting:
The majority holds that federal courts have
jurisdiction in this case based on precedent not
applicable to its decision. For that reason, I must
dissent.
Currently Guam is an unincorporated, organized
territory of the United States.' Guam's legislature
found that the native inhabitants of Guam "have
been subjected to incessant control by external
colonial powers" and have never been afforded the
right to self-determination as to their political
relationship with the United States. 1 Guam Code
Ann. § 2101. Therefore, in 2004, Guam's
legislature enacted 1 Guam Code Ann. § 2110. It
provides:
Guam became an "organized" territory
after Congress enacted the Guam Organic
Act in 1950, which granted the people of
Guam United States citizenship and
established

institutions

of

local

(a) The Guam Election Commission shall
conduct a "Political Status Plebiscite", at
which the following question, which shall
be printed in both English and Chamorro,
shall be asked of the eligible voters:
In recognition of your right to selfdetermination, which of the following
political status options do you favor?
(Mark ONLY ONE):
Independence ( )
Free Association with the United States
of America ( )
Statehood ( ).
Person eligible to vote shall include those
persons designated as Native Inhabitants
of Guam, as defined within this Chapter of
the Guam Code Annotated, who are
eighteen (18) years of age or older on the
date of the "Political Status Plebiscite" and
are registered voters on Guam.
The "Political Status Plebiscite" mandated
in Subsection (a) of this Section shall be
held on a date of the General Election at
which seventy percent (70%) of the
eligible voters, pursuant to this Chapter,
have been registered as determined by the
Guam Election Commission.

government. Guam is "unincorporated,"
because not all provisions of the U.S.
Constitution apply to the territory. DOI
Dept of Insular Aff., Report on the State of
the

Islands

(1997),

http://www.doi.gov/oia/reports/Chapter-4—
Guam.cfm (last visited Apr. 15, 2015).

casetext

From the plain language of the statute, it is
apparent that (1) the Guam legislature wants to
gather the opinion of the Native Inhabitants of
Guam regarding political status options; (2) to
gather that opinion, the legislature scheduled a
future plebiscite (poll) asking for an indication of
what political status option is favored by such
Native Inhabitants; and (3) the poll will not occur
unless seventy percent of the Native Inhabitants of
Guam register to be polled.

5

Davis v. Guam 785 F,3d 1311 (9th Cir. 2015)
It is a fundamental principle that federal courts are
courts of limited jurisdiction, limited to deciding
"cases" and "controversies." U.S. Const. art. III, §
2. The Supreme Court has repeatedly insisted that
a case or controversy does not exist, unless the
plaintiff shows that "he has sustained or is
immediately in danger of sustaining some direct
injury as the result of the challenged official
conduct." City of L.A. v. Lyons, 461 U.S. 95, 102,
103 S.Ct. 1660, 75 L.Ed.2d 675 (1983) (internal
quotation marks omitted) (emphasis added). The
Court admonished that the "injury or threat of
injury must be both real and immediate, not
conjectural or hypothetical. " Id. (internal
quotation marks omitted) (emphasis added).
"[R]ipeness is peculiarly a question of timing,"
and ripeness is particularly at issue when a party
13 18seeks pre-enforcement review of a statute or *1.318
regulation. Thomas v. Anchorage Equal Rights
Com'n, 220 F.3d 1134, 1138 (9th Cir.2000). A
"claim is not ripe for adjudication if it rests upon
contingent future events that may not occur as
anticipated, or indeed may not occur at all." Bova
v. City of Medford, 564 F.3d 1093, 1096 (9th
Cir.2009) (quoting Texas v. United States, 523
U.S. 296, 300, 118 S.Ct. 1257, 140 L.Ed.2d 406
(1998) ). The Supreme Court has consistently held
that the ripeness doctrine aims "to prevent the
courts, through premature adjudication, from
entangling themselves in abstract disagreements."
Thomas v. Union Carbide Agric. Prods. Co., 473
U.S. 568, 580, 105 S.Ct. 3325, 87 L.Ed.2d 409
(1985) (internal quotation marks omitted). "Where
a dispute hangs on future contingencies that may
or may not occur, it may be too impermissibly
speculative to present a justiciable controversy."
In re Coleman, 560 F.3d 1000, 1005 (9th Cir.2009)
(internal quotation marks and citations omitted).
The district court found Davis's alleged injury was
not ripe. "Although a district court's determination
of federal subject matter jurisdiction is reviewed
de novo, the district court's factual findings on
jurisdictional issues must be accepted unless
clearly erroneous." Stock W, Inc. v. Confederated

casetext

Tribes of the Colville Reservation, 873 F.2d 1221,
1225 (9th Cir.1989) (internal citations omitted).
The district court conducted a hearing and then
made certain factual findings as to the ripeness of
Davis's claim. The district court found that: (1)
there is no date currently set for the plebiscite; (2)
"there is no discernible future election in sight";
(3) there is no "real threat of the election occurring
any time soon"; (4) there is "little likelihood that
the plebiscite will be scheduled any time in the
near future"; (5) Davis's own statements actually
support the conclusion that the "plebiscite is not
likely to occur any time soon, or if at all"; (6)
Davis had not "successfully argued [or] shown
that he is presently threatened with or has already
suffered any irreparable damage or injury because
he cannot register for a plebiscite that is more than
likely not to occur " The district court concluded
that "until the plebiscite [Davis] seeks to register
for is "certainly impending," that Davis had no
claim.
The district court's factual findings are supported
by the record. Davis does not challenge the
findings as clearly erroneous. The majority does
not hold the findings to be clearly erroneous.
Applying the ripeness precedent to these findings,
this controversy fails for ripeness. The inability to
register for an opinion poll, that is not currently
scheduled and unlikely to ever occur, is not a
matter of "sufficient ripeness to establish a
concrete case or controversy." Thomas, 473 U.S.
at 579, 105 S.Ct. 3325. Whether the plebiscite
occurs is contingent on a series of events that have
not yet occurred and may never occur. Thus, at
this point, there is not a "realistic danger" that the
plebiscite will occur. Babbitt v. United Farm
Workers Nat'l Union, 442 U.S. 289, 298, 99 S.Ct.
2301, 60 L.Ed.2d 895 (1979). Our court's role is
"neither to issue advisory opinions nor to declare
rights in hypothetical cases, but to adjudicate live
cases or controversies." Thomas v. Anchorage
Equal Rights Comm'n, 220 F.3d 1134, 1138 (9th
Cir.2000). Davis's allegations of future injury are
too speculative to be "of sufficient immediacy and

6

Davis v. Guam 785 F.3d 1311 (9th Cir. 2015)
reality" to satisfy the constitutional requirement of
ripeness. See In re Coleman, 560 F.3d at 1005.2
t319Thus, the .1319matter is not ripe and our court has
no jurisdiction.
2 The Sixth Circuit appears to be the only
Circuit that has directly addressed the
question of when an alleged deprivation of
voting rights is ripe. The court found the
Constitution protects an individual's
"fundamental right to vote not the right to
register to vote. " Lawson v. Shelby Cnty.,
211 F.3d 331, 336 (6th Cir.2000) (emphasis
added). Accordingly, the court found that
the cause of action accrued on election day,
"when [the plaintiffs] presented themselves
at their polling station and were refused the
right to vote," not when they were
"notified that their registrations had been
rejected" for refusing to provide social
security numbers. Id. Unlike this case, the
"vote" at issue in Lawson involved an
actual election.

change the rights of Guam's citizens or that the
plebiscite itself will change or decide Guam's
political status in relationship with the United
States. Rather, the injury alleged by Davis is
merely being denied the right to register to
participate in an opinion poll that will likely never
occur. Clearly, the inability to register for this
opinion poll is not equivalent to being denied the
right to register to vote in the type of vote
contemplated and protected by the Constitution.
3 I note the majority also cites Batson v.
Kentucky, 476 U.S. 79, 85-86, 106 S.Ct.
1712, 90 L.Ed.2d 69 (1986) to support its
position. Op. 1315. However, in Batson,
the United States Supreme Court held that
a prosecutor's use of peremptory challenges
based on race violates the Equal Protection
Clause of the Fourteenth Amendment.
Batson, 476 U.S. at 85-86, 106 S.Ct. 1712.
The Court's focus was protecting the
defendant's constitutional right to a trial by
jury. Id. The Court found that the jury must
be "indifferently chosen to secure the
defendant's right under the Fourteenth

In its decision, the majority instead concludes that
Davis has standing to challenge the plebiscite, not
based on voting rights cases, but based on one's
ability to seek Social Security benefits.3 In fact,
the majority cites no precedent suggesting that
forbidding Davis from registering for this
plebiscite implicates the voting rights protected
under the Constitution. The Fifteenth Amendment
only applies to an "election in which public issues
are decided or public officials selected. " Terry v.
Adams, 345 U.S. 461, 468, 73 S.Ct. 809, 97 L.Ed.
1152 (1953) (emphasis added). Davis does not
allege that he is being denied the right to register
for an election. Davis does not allege the
plebiscite will select "candidates for public or
party office." See 52 U.S.C. § 10310(c). Davis
does not allege the plebiscite will change Guam's
Constitution. Davis does not allege the plebiscite
will enact, amend, or repeal any statute. Despite
the language in the majority's opinion to the
contrary, Davis does not allege the plebiscite will

casetext

Amendment." Id. at 87, 106 S.Ct. 1712
(internal quotation marks omitted)
(emphasis added). It is difficult to
understand how the majority extrapolated
the holding in this case to its conclusion
that Davis's right to register for the
plebiscite "is not unlike the right to
participate in jury service, which may not
be denied on a constitutionally unequal
basis." Op. 1315.

Even if prohibiting Davis from registering for the
plebiscite were a violation of his voting rights, this
case "involves too remote and abstract an inquiry
for the proper exercise of the judicial function."
Texas v. United States, 523 U.S. 296, 300, 118
S.Ct. 1257, 140 L.Ed.2d 406 (1998). The
plebiscite is not currently scheduled and as the
district court found, it is not likely to ever occur !
The condition precedent to even scheduling the
opinion poll is obtaining the registration of
7

4

Davis v. Guam 785 F.3d 1311 (9th Cir. 2015)

•

seventy percent of the eligible voters. Failing to
satisfy this requirement (an event that even Davis
describes as a "mirage"), the poll will not take
place. Yet, amazingly, the majority finds these
circumstances present a case ripe for resolution.

between the government's alleged
deprivation of appellee's right to equal
protection and the personal injury appellee
has suffered—denial of Social Security
benefits solely on the basis of his gender";
(2) that he was denied equal treatment

The majority mistakenly suggests that Heckler v.
Mathews, 465 U.S. 728, 104 S.Ct. 1387, 79
L.Ed.2d 646 (1984) would apply.4 However, in
there was *1320 no question that Social
Security pension benefits would be paid. There
was no uncertainty as to application of the
allegedly unconstitutional pension offset
provision. Thus, there was no question the issue
was ripe. Indeed, the Court was not asked to
determine ripeness and the Court did not address
ripeness. Rather, the issue before the Court was
determining the plaintiffs standing. The Court was
asked to answer the question of whether the
plaintiffs standing was dependant on his ability to
receive additional benefits if he prevailed. See
Mathews, 465 U.S. at 735-38, 104 S.Ct. 1387.

1320Mathews,

4 The plaintiff in Mathews claimed that he
was subjected to unequal treatment as to
Social Security benefits "solely because of
his gender." Mathews, 465 U.S. at 738, 104
S.Ct. 1387. Specifically, the plaintiff
alleged that "as a nondependent man, he
receiv[ed] fewer benefits than he would if
he were a similarly situated woman." Id.
The Court focused on two factors when

solely because of gender (a protected
class). Id. at 739-40 & n. 9, 104 S.Ct.
1387. The court concluded that the
plaintiff's standing did not depend on his
ability to obtain increased Social Security
benefits if he prevailed. Id. at 737, 104
S.Ct. 1387.

Thus, the majority's conclusion that this case is
ripe is without precedent and ignores the district
court's extensive factual findings as to ripeness.
Can you imagine the hours the district court will
now have to spend resolving Davis's many alleged
claims, including claims of alleged unequal
treatment under the Fourteenth Amendment,
alleged stigmatizing harm under the Establishment
Clause, alleged violations of the Voting Rights
Act, even though this plebiscite will never occur?
Given the speculative and remote course of events
that stands between Davis and his contemplated
injury, this matter is not ripe for adjudication, and
the district court correctly dismissed Davis's
complaint.

determining the plaintiff had standing (1)
his injury was concrete as "there was no
doubt about the direct causal relationship

casetext

8

EXHIBIT 3

1

3
4
5
IN THE UNITED STATES DISTRICT COURT
6
FOR THE TERRITORY OF GUAM
7
8
9

Arnold Davis, on behalf of himself and all
others similarly situated,
CIVIL CASE NO. 11-00035

10

Plaintiff,
vs.

ORDER

11
12
13
14

Guam, Guam Election Commission, Alice M.
Taijeron, Martha C. Ruth, Joseph F. Mesa,
Johnny P. Taitano, Joshua F. Renorio, Donald
I. Weakley, and Leonardo M. Rapadas,
Defendants.

15
The court accepts and adopts the Magistrate Judge's Report and Recommendation dated
16
June 14, 2012 (ECF No. 44), and GRANTS the Defendants' Motion to Dismiss.
17
I. CASE OVERVIEW
18
This is a civil rights action which deals with the topic of self-determination of the
19
political status of the island and who should have the right to vote on a referendum concerning
20
such. The Plaintiff claims that he is prohibited from registering to vote on the referendum, which
21
is a violation of his Fourteenth and Fifteen Amendment rights as well as a violation of the
22
Organic Act and the Voting Rights Act.
23
A. Factual Background
24
1

Case 1:11-cv-00035 Document 78 Filed 01/09/13 Page 1 of 17

1

The following facts are taken as established for the purpose of this motion.' On

2

November 22, 2011, Plaintiff filed his complaint for declaratory and injunctive relief. See

3

Comp'., ECF No. 1. In the complaint, he alleges discrimination in the voting process by Guam

4

and the Defendants. Id. Plaintiff alleges that under Guam law, a 'Political Status Plebiscite' is to

5

be held concerning Guam's future relationship with the United States.2 Id., ¶8. Plaintiff, a

6

white, non-Chamorro, male and resident of Guam, states that he applied to vote for the plebiscite

7

but was not permitted to do so because he did not meet the definition of "Native Inhabitant of

8

Guam." "Native Inhabitants of Guam" are defined as "those persons who became U.S. Citizens

9

by virtue of the authority and enactment of the 1950 Organic Act of Guam and descendants of

10
11
12

those persons." 1 Guam Code Ann. § 2102, id., ¶1120 and 21.
The Guam Legislature established a "Guam Decolonization Registry" for the "purpose of
registering and recording the names of the Native Inhabitants of Guam." 3 Guam Code Ann. §

13
14
15

For purposes of the motion to dismiss, the court recounts the facts as alleged in the Plaintiff's Complaint
and assumes their veracity for the limited purposes of deciding the motion. "When there are well-pleaded factual
allegations, a court should assume their veracity and then determine whether they plausibly give rise to an
entitlement to relief." Ashcroft v. Iqbal, 129 S. Ct. 1937, 1950 (2009).

16

2

17

(a) The Guam Election Commission shall conduct a "Political Status Plebiscite", at which the following
question, which shall be printed in both English and Chamorro, shall be asked of the eligible voters:

18

In recognition of your right to self-determination, which of the following political status
options do you favor? (Mark ONLY ONE):

19
20
21
22
23
24

Plebiscite Date and Voting Ballot.

Independence ( )
Free Association with the United States of America ( )
Statehood ( ).
Person eligible to vote shall include those persons designated as Native Inhabitants of Guam, as defined
within this Chapter of the Guam Code Annotated, who are eighteen (18) years of age or older on the date of the
"Political Status Plebiscite" and are registered voters on Guam.
The "Political Status Plebiscite" mandated in Subsection (a) of this Section shall be held on a date of the
General Election at which seventy percent (70%) of the eligible voters, pursuant to this Chapter, have been
registered as determined by the Guam Election Commission.
1 Guam Code. Ann. § 2110.

2

Case 1:11-cv-00035 Document 78 Filed 01/09/13 Page 2 of 17

21001(d); see Compl., ECF No. 1, ¶ 17. The law further provides "[a]ny person who willfully
causes, procures or allows that person, or any person, to be registered with the Guam
Decolonization Registry, while knowing that the person, or other person, is not entitled to
register with the Guam Decolonization Registry, shall be guilty of perjury as a misdemeanor." 3
Guam Code. Ann. § 21009. The plebiscite would ask native inhabitants which of the three
political status options they preferred. The three choices are Independence, Free Association with
the United States, and Statehood. See Compl., ECF No. 1, ¶ 8.
Because the Plaintiff was denied the right to register for the plebiscite, the Plaintiff filed
the instant complaint, stating three causes of action. In his first cause of action, he alleges that by
limiting the right to vote in the Political Status Plebiscite to only Native Inhabitants of Guam, the
purpose and effect of the act was to exclude him and most non-Chamorros from voting therein,
thereby resulting in a denial or abridgment of the rights of citizens of the United States to vote on
account of race, color, or national origin, a violation of Section 2 of the Voting Rights Act of
1965.
In his second cause of action, Plaintiff alleges that Defendants are preventing him from
registering to vote in the Political Status Plebiscite because he is not a Native Inhabitant of
Guam. Thus, Defendants are engaged in discrimination on the basis of race, color, and/or
national origin in violation of various laws of the United States.
Lastly, the Plaintiff's third cause of action alleges that he is being discriminated in
relation to his fundamental right to vote in the plebiscite in violation of the Organic Act of
Guam, the U.S. Constitution and other laws of the United States for the reason that he is not a
native inhabitant of Guam.
In his Prayer for Relief, Plaintiff seeks a judgment: enjoining Defendants from preventing
Plaintiff and those similarly situated from registering for and voting in the Political Status
3

Case 1:11-cv-00035 Document 78 Filed 01/09/13 Page 3 of 17

Plebiscite; enjoining the Defendants from using the Guam Decolonization Registry in
determining who is eligible to vote in the plebiscite; enjoining enforcement of the criminal law
provisions of the Act that make it a crime to register or allow a person to vote in the plebiscite
who is not a Native Inhabitant of Guam; and a declaration that Defendants' conduct has been and
would be, if continued, a violation of law.
B. Statutory History of the Plebiscite Vote
The Magistrate Judge's recitation of the statutory history of the plebiscite is set forth
herein since there is no objection to his representations of fact.
The current plebiscite law traces its beginnings to P.L. 23-130, which became law on
December 30, 1996. Therein, the Guam Legislature established a Chamorro Registry for the
purpose of establishing an index of names by the Guam Election Commission for registering
Chamorros and recording their names. The Registry was to serve as a tool to educate Chamorros
about their status as an indigenous people and their inalienable right to self-determination. A
week after the passage of the above referenced law, the Guam Legislature passed P.L. 23-147.
This new law created the Commission on Decolonization for the implementation and Exercise of
Chamorro Self-Determination ("Commission on Decolonization"). The purpose of the
Commission was to ascertain the desires of the Chamorro people of Guam as it pertained to their
future political relationship with the United States. The law required the Guam Election
Commission to conduct a Political Status Plebiscite at the next Primary Election (September,
1998) during which qualified voters would be asked to choose among three political status
options. The status options were Independence, Free Association, and Statehood. The results of
the plebiscite were to be transmitted to the President and Congress of the United States and the
Secretary General of the United Nations.

4

Case 1:11-cv-00035 Document 78 Filed 01/09/13 Page 4 of 17

Seeing that no plebiscite vote occurred during the primary election in 1998, the Guam
Legislature passed P.L. 25-106 to have the plebiscite vote take place on July 1, 2000. The Act
more importantly changed those persons entitled to vote during the Political Status Plebiscite
from "Chamorros" to "Native Inhabitants of Guam". A native inhabitant was defined as a person
who became a citizen by virtue of the 1950 Organic Act of Guam and a descendant of such
person.
P.L. 25-106 also created a Guam Decolonization Registry. It was a registry separate and
apart from the Chamorro registry. The Decolonization Registry was to create a list of qualified
voters for the plebiscite. Thus, every person who was a native inhabitant of Guam as defined in
the Act was entitled to register with the Decolonization Registry.
Four years after passage of the Guam Decolonization Registry and seeing that a plebiscite
vote had still not taken place, the Guam Legislature passed P.L. 27-106 on September 30, 2004.
This Act provided that the Political Status Plebiscite shall be held on a general election at which
seventy percent (70%) of eligible voters have been registered as determined by the Guam
Election Commission.
C. Procedural History
On November 22, 2011, Plaintiff filed his complaint herein. See Compl., ECF No. 1. On
December 2, 2011, the Attorney General of Guam, Leonardo M. Rapadas, a named Defendant,
on behalf of himself and all named defendants, moved to dismiss the complaint on the ground
that it failed to present a case or controversy. See Def.s' Mot., ECF No. 17.
On December 30, 2011, Anne Perez Hattori ("Ms. Hattori"), filed a Motion for Leave to
file a brief, as Amicus Curiae, in support of Defendants' Motion to Dismiss. See Mot., ECF No.
20.
On January 3, 2012, Plaintiff filed his opposition to Defendant's Motion to Dismiss and
5

Case 1:11-cv-00035 Document 78 Filed 01/09/13 Page 5 of 17

on January 7, 2012, he filed an opposition to Ms. Hattori's Motion for Leave to file an Amicus
Curiae brief. See Pl.'s Opp'n, ECF No. 21 and Pl.'s Opp'n, ECF No. 23.
On February 1, 2012, Defendants' Motion to Dismiss was referred by the undersigned to
the Magistrate Judge for a Report and Recommendation. See Order, ECF No. 25.
On April 6, 2012, the court granted Ms. Hattori's motion for leave to file a brief, as
Amicus Curiae. See Order, ECF No. 41.
On June 14, 2012, the Magistrate Judge issued his Report and Recommendation
("Report"). See Rpt. and Rec., ECF No. 44. Therein, the Magistrate Judge recommended the
Plaintiff's Complaint be dismissed because the Plaintiff lacks standing and the case is not ripe
for adjudication.
The Plaintiff filed his objections to the United States Magistrate's Report and
Recommendation on July 1, 2012. See Pl.'s Obj., ECF No. 46. The Defendants filed their
Response to the Plaintiff's objections to the Report on July 16, 2012. See Def s' Response. ECF
No. 47.
On September 21, 2012, the court ordered the Defendants to file a responsive pleading,
specifically addressing the applicability of John Davis, Jr. v. Commonwealth Election
Committee, Case No. 12-CV-00001, 2012 WL 2411252 (D.N.M.I. June 26, 2012). See Order,
ECF No. 69.
A hearing on the Plaintiff's objections to the Report was held on November 15, 2012.
II. JURISDICTION AND VENUE
The court has jurisdiction to hear this matter pursuant to 28 U.S.C. § 1331 for Plaintiff's
claims under 28 U.S.C. § 1343 and 48 U.S.C. § 1424(b).
Venue is proper in this judicial district, the District of Guam, because Plaintiff and
Defendants reside on Guam, and because all of the events or omissions giving rise to Plaintiff's
6

Case 1:11-cv-00035 Document 78 Filed 01/09/13 Page 6 of 17

claims occurred here. See 28 U.S.C. § 1391.
STANDARD OF REVIEW
When a party files a timely objection to a magistrate judge's report and recommendation,
"[a] judge of the court shall make a de novo determination of those portions of the report or
specified proposed findings or recommendations to which objection is made." 28 U.S.C. §
636(b)(1)(C); see Baxter v. Sullivan, 923 F.2d 1391, 1394 (9th Cir. 1991); see also FED.R.Civ.P.
72(b)(3) (stating "[t]he district judge must determine de novo any part of the magistrate judge's
disposition that has been properly objected to"). "A judge of the court may accept, reject, or
modify, in whole or in part, the findings or recommendations made by the magistrate judge." 28
U.S.C. § 636(b)(1)(C); see also FED.R.Cw.P. 72(b)(3) (stating a district judge "may accept,
reject, or modify the recommended disposition; receive further evidence; or return the matter to
the magistrate judge with instructions").
A district court's obligation to make a de novo determination of properly contested
portions of a magistrate judge's report and recommendation does not require that the judge
conduct a de novo hearing on the matter. United States v. Raddatz, 447 U.S. 667, 676 (1980).
Accordingly, the court makes a de novo review to those portions of the Report and
Recommendation in which the Plaintiff has lodged objections.
IV. APPLICABLE STANDARD FOR MOTION TO DISMISS
The Defendants argue that this court has no jurisdiction to hear this action under Rule
12(b)(1) because the Plaintiff lacks standing and the matter is not ripe for review.3 Standing and
ripeness are legal issues subject to de novo review. Bruce v. United States, 759 F.2d 755, 758
(9th Cir. 1985).

3

The Defendants also move for dismissal under Civil Procedure Rule 12(b)(6). However, the court need
not address that particular argument, in light of this court's ruling concerning its lack of subject matter jurisdiction.

7

Case 1:11-cv-00035 Document 78 Filed 01/09/13 Page 7 of 17

V. DISCUSSION
The Defendants moved to dismiss the Plaintiffs complaint arguing that there was no case
or controversy before the court. In the amicus curiae brief Ms. Hatorri argued that there was no
standing and the case was not ripe. The Magistrate Judge agreed with Ms. Hattori and found the
Plaintiffs claims were not ripe for adjudication. He recommended dismissal of the Plaintiff s
Complaint for the following reasons:
Plaintiffs complaint which seeks to enjoin Defendants from preventing
him from registering and voting in the 'Political Status Plebiscite' on a general
election presents no case or controversy since the matter is not ripe for
adjudication. There is no plebiscite vote set in the 2012 general election and no
plebiscite vote to date is in sight. Plaintiff's allegations present no sufficient
immediacy and reality to warrant intervention by the court.
Plaintiff has no standing to bring an action to enjoin the Attorney
General from enforcing the provisions of the plebiscite law that makes it a
misdemeanor to register or allow anyone to register with the Guam
Decolonization Registry if the person were not a Native Inhabitant of Guam.
Plaintiff has not alleged that he has been charged with any crime in relation to the
Political Status Plebiscite act nor has he shown that he is subject to a genuine
threat of imminent prosecution in relation to the said act.
See Rpt. and Rec., ECF No. 44, at 9:20-10:4.
The Plaintiff objects to the Magistrate Judge's findings and conclusions which are now
before this court for consideration.
A. No Opportunity to be heard on ripeness issue.
First, the Plaintiff objects to the fact that he was not given an opportunity to be heard on
the ripeness arguments, which were raised for the first time in the amicus brief. As noted above,
the Defendants filed their Motion to Dismiss on December 2, 2011. See Mot., ECF No. 17.
Therein, they did not raise the issue of ripeness. Id.
On the last day for the filing of the Plaintiffs opposition to the motion— December 30,
2011, a Motion for Leave to File an amicus curiae brief was filed by Ms. Hattori supporting
8

Case 1:11-cv-00035 Document 78 Filed 01/09/13 Page 8 of 17

dismissal based upon a ripeness argument. See Mot., ECF No. 20. On April 6, 2012, the
Magistrate Judge granted leave to the amicus to file the brief containing the ripeness arguments.
However, there was no provision in the Magistrate Judge's order permitting the Plaintiff to file
an opposition, nor was a hearing scheduled to hear argument on the matter.
The Government argues that the Plaintiff should not be found wanting in this regard.
"First, 'subject-matter jurisdiction, because it involves a court's power to hear a case, can never
be forfeited or waived.' Moreover, courts ... have an independent obligation to determine
whether subject-matter jurisdiction exists, even in the absence of a challenge from any party."
Arbaugh v. Y&H Corp., 546 U.S. 500, 514 (2006) (quoting United States v. Cotton, 535 U.S.
625, 630 (2002); also citing Ruhrgas AG v. Marathon Oil Co., 526 U.S. 574, 583 (1999)). "[N]o
action of the parties can confer subject-matter jurisdiction upon a federal court. Thus, the consent
of the parties is irrelevant, principles of estoppel do not apply, and a party does not waive the
requirement by failing to challenge jurisdiction early in the proceedings." Insurance Corp. of
Ireland, Ltd. v. Compagnie des Bauxites de Guinee, 456 U.S. 694, 702 (1982) (citations omitted).
It is probably true that the Plaintiff should have been given an opportunity to be heard at
the time the matter was before the Magistrate Judge. Yet, because the Plaintiff actually
addresses the issue of ripeness in his objections to the Report, he has now been given an
opportunity, such that, this court can rule on the matter without need for additional briefing.

B. Article III
Article III of the United States Constitution requires that those who seek to invoke the
power of the federal courts must allege an actual case or controversy. See U.S. CONST. art. III;
see also Los Angeles v. Lyons, 461 U.S. 95, 101 (1983) (citing Flast v. Cohen, 392 U.S. 83, 94101 (1968)). Subsumed within this restriction are two components. Colwell v. Dep't of Health
9

Case 1:11-cv-00035 Document 78 Filed 01/09/13 Page 9 of 17

& Human Servs., 558 F.3d 1112, 1121-23 (9th Cir. 2009). "Standing and ripeness present the
threshold jurisdictional question of whether a court may consider the merits of a dispute." Elend
v. Basham, 471 F.3d 1199, 1204 (11th Cir. 2006). "Both standing and ripeness originate from the
Constitution's Article III requirement that the jurisdiction of federal courts be limited to actual
cases and controversies." Id. at 1204-05.
"The Article III case or controversy requirement limits federal courts' subject matter
jurisdiction by requiring, inter alia, that plaintiffs have standing and that claims be 'ripe' for
adjudication ... Standing addresses whether the plaintiff is the proper party to bring the matter to
the court for adjudication. The related doctrine of ripeness is a means by which federal courts
may dispose of matters that are premature for review because the plaintiff's purported injury is
too speculative and may never occur." Chandler v. State Farm Mut. Auto. Ins. Co., 598 F.3d
1115, 1121-22 (9th Cir. 2010) (citations omitted). "The standing question is whether the plaintiff
has alleged such a personal stake in the outcome of the controversy as to warrant his invocation
of federal-court jurisdiction. The ripeness question is whether the harm asserted has matured
sufficiently to warrant judicial intervention. Both questions bear close affinity to one another."
Immigrant Assistance Project of Los Angeles County Federation of Labor (AFL-CIO) v. I.N.S.,
306 F.3d 842, 859 (9th Cir. 2002) (quotation marks, editorial brackets and citations omitted). See
also, City of Auburn v. Qwest Corp., 260 F.3d 1160, 1172 n.6 (9th Cir. 2001) (noting that
standing "overlaps substantially" with ripeness and that in that case, both were "inextricably
linked").
1. Standing
The standing dispute in this case is entirely over whether the Plaintiff is in-fact injured
because he cannot register to vote in a plebiscite that may, in fact, never be held. In order for a
plaintiff to demonstrate standing for injunctive and declaratory relief:
10

Case 1:11-cv-00035 Document 78 Filed 01/09/13 Page 10 of 17

[A] plaintiff must show that he [or she] is under threat of suffering "injury in fact"
that is concrete and particularized; the threat must be actual and imminent, not
conjectural or hypothetical; it must be fairly traceable to the challenged action of
the defendant; and it must be likely that a favorable judicial decision will prevent
or redress the injury.
Summers v. Earth Island Institute, 129 S. Ct. 1142, 1149 (2009) (quoting Friends of Earth, Inc.
v. Laidlaw Environmental Services (TOC), Inc., 528 U.S. 167, 180-81 (2000)).
A plaintiff must demonstrate "a real and immediate threat that he would again" suffer the
injury to have standing for prospective equitable relief. Lyons, 461 U.S. at 105. The "mere
physical or theoretical possibility" of a challenged action again affecting a plaintiff is not
sufficient. Murphy v. Hunt, 455 U.S. 478, 482 (1982). It is necessary that there be a "reasonable
expectation" or a "demonstrated probability" that the same controversy will recur involving the
plaintiff. Weinstein v. Bradford, 423 U.S. 147, 149 (1975).
To establish Article III standing, a plaintiff must show inter-alia that he faces
imminent injury on account of the defendant's conduct. Past exposure to harmful
or illegal conduct does not necessarily confer standing to seek injunctive relief if
the plaintiff does not continue to suffer adverse effects. Nor does speculation or
"subjective apprehension" about future harm support standing. Once a plaintiff
has been wronged, he is entitled to injunctive relief only if he can show that he
faces a "real or immediate threat . . . that he will again be wronged in a similar
way."
Mayfield v. United States, 599 F.3d 964, 970 (9th Cir. 2010) (citations omitted).
In order to establish an injury in fact necessary to a claim for injunctive relief, the moving
party must demonstrate that a defendant's conduct is causing irreparable harm. Levin v.
Harleston, 966 F.2d 85, 90 (2d Cir. 1992). This requirement cannot be met absent a showing of
a real or immediate threat that the plaintiff will be wronged again. Lyon, 461 U.S. at 101. While
past wrongs consist of evidence bearing on whether there is a real and immediate threat of
repeated injury, "[p]ast exposure to illegal conduct does not in itself show a present case or
controversy regarding injunctive relief ... if unaccompanied by any continuing, present adverse
11

Case 1:11-cv-00035 Document 78 Filed 01/09/13 Page 11 of 17

effects." O'Shea v. Littleton, 414 U.S. 488, 495-96 (1974). Thus, "there must be sufficient
2

immediacy, reality and causality between defendants' conduct and plaintiffs' allegations of

3

future injury" to warrant injunctive relief. Weiser v. Koch, 632 F.Supp. 1369, 1373 (S.D.N.Y.

4

1986).

5

Examining the facts of the case it is clear there is no on-going, real and immediate threat

6

of repeated injury sufficient to confer standing for injunctive relief. Plaintiff has not successfully

7

argued nor has he shown that he is presently threatened with or has already suffered any

8

irreparable damage or injury because he cannot register for a plebiscite that is more likely than

9

not to occur. See Benoit v. Gardner, 345 F.2d 792, 793 (1965) ("There must, at the least, be a

10

strong showing of a likelihood of success and of irreparable harm."). A purely hypothetical threat

11

to federally protected rights does not afford a basis for injunctive relief nor does it raise before

12

the court a justiciable controversy. United Public Workers of America (CIO.) v. Mitchell, 330

13

U.S. 75, 90 (1947).
The Magistrate Judge also found the Plaintiff lacked standing to challenge the

14
15

enforcement of 3 GCA § 20009 which makes it a crime to register or allow a person to register

16

with the Guam Decolonization Registry, who is not a Native Inhabitant of Guam. That section of

17

the Guam code makes it a misdemeanor for anyone who "willfully causes, procures or allows"

18

any person "to be registered with the Guam Decolonization Registry, while knowing that the

19

person . . . is not entitled to register" with the Decolonization Registry. 3 Guam Code. Ann. §

20

21009.

21

The Plaintiff "must demonstrate a genuine threat that the allegedly unconstitutional law is

22

about to be enforced against him." Stoianof v. State of Montana, 695 F.2d 1214, 1223 (9th Cir.

23

1983). "A plaintiff must do more than merely allege imminent harm sufficient to establish

24

standing, he or she must demonstrate immediate threatened injury as a prerequisite to
12

Case 1:11-cv-00035 Document 78 Filed 01/09/13 Page 12 of 17

preliminary injunctive relief." Associated General Contractors of California, Inc. v. Coalition
for Economic Equity, 950 F.2d 1401, 1410 (9th Cir. 1991).
The Magistrate Judge found the Plaintiff had not been charged with a misdemeanor, nor
had he shown that he is subject to a genuine threat of imminent prosecution. See Wolfson v.
Brammer, 616 F. 3d 1045, 1058 (9th Cir. 2010), quoting San Diego Cnty. Gun rights Comm. v.
Reno, 98 F. 3d 1121, 1126 (9th Cir. 1996). In evaluating threats of imminent prosecution, the
court considers: (1) whether plaintiff has articulated a concrete plan to violate the law in
question; (2) whether prosecuting authorities have communicated a specific warning or threat to
initiate proceedings; and (3) whether the past history of past prosecution or enforcement under
the challenged statute suggests that prosecution may, in fact, be imminent. Id. While the Plaintiff
may believe there is a possibility of prosecution, that remains speculative at best. A general
threat of prosecution is not enough to confer standing. See e.g. Poe v. Ullman, 367 U.S. 497, 501
(1961) (mere allegation that state attorney intended to prosecute any offense against the local law
held insufficient to confer standing).
In addition, the Plaintiff's inability to point to any history of prosecutions undercuts his
argument that he faces a genuine threat of prosecution. See Rincon Band of Mission Indians v.
County of San Diego, 495 F.2d 1, 4 (9th Cir. 1974) (no standing where the record did not reveal
there had been a history of prosecution under the county ordinance); Western Mining Council v.
Watt, 643 F.2d 618, 624 (9th Cir. 1981) (no standing where plaintiffs failed to allege that the
challenged statute had ever been applied or threatened to apply). At most, the Plaintiff speculates
that there is the possibility of prosecution. Because the Plaintiff has not sufficiently alleged how
the Defendants will immediately harm him, this court hereby overrules the Plaintiff's objection
and affirms the Magistrate Judge's report and recommendation on this issue.
2. Ripeness
13

Case 1:11-cv-00035 Document 78 Filed 01/09/13 Page 13 of 17

The question of timing turns on the jurisdictional doctrine of ripeness. "The 'basic
rationale' for the ripeness doctrine 'is to prevent the courts, through avoidance of premature
adjudication, from entangling themselves in abstract disagreements' over policy with other
branches of the federal government." Hillblom v. United States, 896 F.2d 426, 430 (9th Cir.
1990), citing Abbott Labs. v. Gardner, 387 U.S. 136, 148 (1967).
Ripeness often overlaps with standing, "most notably in the shared requirement that the
injury be imminent rather than conjectural or hypothetical." Brooklyn Legal Servs. Corp. v.
Legal Servs. Corp., 462 F.3d 219, 225 (2d Cir. 2006). As is often the case "sorting out where
standing ends and ripeness begins is not an easy task." See Thomas v. Anchorage Equal Rights
Comm 'n„ 220 F.3d 1134, 1138-39 (9th Cir. 2000). "A claim is not ripe for adjudication if it rests
upon contingent future events that may not occur as anticipated, or indeed, may not occur at all."
Texas v. United States, 523 U.S. 296, 300 (1998) (quotation marks omitted). "Two
considerations predominate the ripeness analysis: (1) "the hardship to the parties of withholding
court consideration" and (2) "the fitness of the issues for judicial decision." Abbott Labs., 387
U.S. at 149. "To meet the hardship requirement, a party must show that withholding judicial
review would result in direct and immediate hardship and would entail more than possible
financial loss." Dietary Supplemental Coalition, Inc. v. Sullivan, 978 F.2d 560, 562 (9th Cir.
1992). The Supreme Court has long since held that where the enforcement of a statute is certain,
a preenforcement challenge will not be rejected on ripeness grounds. See Holder v.
Humanitarian Law Project, 130 S.Ct. 2705, 2717 (2010).
The Defendants argue that the Plaintiff, himself, admits that the controversy as presented
is not ripe. The Defendants rely on an article written by the Plaintiff which was published in the
Marianas Variety titled, "Getting Out the Vote." See Defs' Resp., ECF No. 47, Attachment. In
the article, the Plaintiff states:
14

Case 1:11-cv-00035 Document 78 Filed 01/09/13 Page 14 of 17

With regard to the actual goal involved — the plebiscite itself, the end of
the self-determination rainbow, as it were — near-term optimism has given way to
financial and other realities. Hope for a plebiscite as early as 2012 has now faded
to 2016 or beyond. Funding isn't the only problem, either. Guam law requires
registration of "70% of eligible voters" before a political status plebiscite can
occur. Of course nobody knows what that figure actually is, as it changes daily.
Senator Pangelinan is responsible for that particular bit of whimsical fluff.
A while ago I compared the growth rate of signatures on the
Decolonization Registry to the timeline since the Registry was created. Even with
a newly-enacted law that automatically adds everyone who qualifies for a CLTC
lease it looks like they have a tough row to hoe. I suspect that most of those
automatically registered are blissfully unaware they were signed up by proxy.
I compute a high probability of reaching the 70% level sometime early in
the 25th century. Even that may be a bit optimistic however, because it's become
apparent that virtually all the eligibles who wished to sign — or were signed up
automatically by their friends at the Guam Election Commission — have already
done so.
Meanwhile, due at least partly to Guam's standing as the undisputed
champion in national birth rate statistics (with Utah a distant second) the number
of 'Native Inhabitants' reaching voting age annually exceeds the number signing
up to vote. It looks like they're actually losing ground in the struggle to reach that
magical 70%.
It's time to regroup, I suppose, or the plebiscite will forever be an alluring
mirage out there on the horizon. I believe we can expect a change to eliminate the
70% requirement or reduce it to something like, say, 10%, which is approximately
where they stand at the moment. They should probably do it soon, because that
number gets smaller every day.
Id.
Ordinarily, the court should pay little attention to an editorial in a periodical. However,
the court considers the opinion voiced by the Plaintiff, in that the historical facts support the
conclusion that the plebiscite is not likely to occur any time soon, or if at all. There is little
likelihood that the plebiscite will be scheduled any time in the near future.
Because of the similarities of facts and issues, the court asked the parties to consider the
applicability of the Commonwealth of the Northern Marianas Islands ("CNMI") case, John
Davis, Jr. v. Commonwealth Election Commission, Case No. 1-12-CV-00001, 2012 WL
15

Case 1:11-cv-00035 Document 78 Filed 01/09/13 Page 15 of 17

2411252 (D.N.M.I. June 26, 2012). In Davis, the plaintiff, sought judicial relief to permanently
enjoin the chairperson and the executive director of the Commonwealth Election Commission
("CEC" or "the Commission") from denying him the right to vote on any initiative to amend or
repeal Article XII of the Constitution of the Commonwealth of the Northern Mariana Islands
("Commonwealth" or "CNMI"). Article XII restricts ownership of permanent and long-term
interests in real property within the Commonwealth to persons of Northern Marianas descent
("NMD"). In 1999, Article XVIII of the Commonwealth Constitution was amended to prohibit
non-NMDs who otherwise are qualified voters from voting on initiatives to change Article XII.
Mr. John Davis, a person of non-NMD descent, who is otherwise qualified to vote in the
Commonwealth, argued that the restriction to his right to vote violated his civil rights as
guaranteed by the Fourteenth and Fifteenth Amendments of the United States Constitution.
Chief Judge Ramona Manglona dismissed without prejudice a legally similar attack on
registration and election procedures in the CNMI to those presented by the plaintiff here in
Guam. Addressing whether the claims in Mr. John Davis' complaint were ripe for judicial
review the court noted,
A claim is "not ripe for adjudication if it rests upon contingent future events that
may not occur as anticipated, or indeed may not occur at all[,]" or if it is "too
speculative whether the problem [plaintiff] presents will ever need solving."
Texas v. United States, 523 U.S. 296, 300, 302 (U.S. 1998) (internal citation
omitted). However, "[w]here the inevitability of the operation of a statute against
certain individuals is patent, it is irrelevant to the existence of a justiciable
controversy that there will be a time delay before the disputed provisions will
come into effect." Reg'l Rail, 419 U.S. at 143.
Davis, 2012 WL 2411252 at *6.
Chief Judge Manglona found that John Davis' claims were not ripe because no initiative
was scheduled for the next election. The court held, "While [John] Davis may find it distressing
to contemplate that under Commonwealth law, if an Article XII initiative gets on the ballot he
16

Case 1:11-cv-00035 Document 78 Filed 01/09/13 Page 16 of 17

will not be permitted to vote on it, he suffers no hardship until an initiative is 'certainly
impending.' " Id., at *7. The same rationale is true of the Plaintiff's claims challenging a
plebiscite in Guam. Until the plebiscite he seeks to register for is "certainly impending," he has
no claim.
Here, just as in the CNMI case, there is no discernible future election in sight. Indeed,
while Mr. Davis cites the fact that the plebiscite has been set and reset repeatedly as proof of
hardship, what it actually demonstrates is just how uncertain it is as to exactly when a plebiscite
will ever be held. To suffer a real discernible injury, any registration would have to be, by
necessity, related to an election that is actually scheduled. See Babbitt v. United Farm Workers
National Union, 442 U.S. 289, 301 n.12 (1979) (The ripeness of an election law claim "depends
not so much on the fact of past injury but on the prospect of its occurrence in an impending or
future election."). Because the Plaintiff has not demonstrated that there is a real threat of the
election occurring any time soon, the court hereby overrules the Plaintiff's objection and affirms
the Magistrate Judge's report and recommendation.
VI. CONCLUSION
Based on the discussion above, the court hereby accepts and adopts the Magistrate
Judge's report and recommendation on this matter, and GRANTS the Defendant's Motion to
Dismiss. Said dismissal is without prejudice.
The Plaintiff may bring this suit again before this court for consideration if and when the
Plaintiff is able to demonstrate that the plebiscite will occur for certain any time soon.

SO ORDERED.

/s/ Frances M. Tydingco-Gatewood
Chief Judge
Dated: Jan 09, 2013

Case 1:11-cv-00035 Document 78 Filed 01/09/13 Page 17 of 17

EXHIBIT 4

1
2
3
4
5

DISTRICT COURT OF GUAM

6

TERRITORY OF GUAM

7
8 ARNOLD DAVIS, on behalf of himself
) CIVIL CASE NO. 11-00035
and all others similarly situated,
)
9
)
Plaintiff,
)
10
)
vs.
) REPORT AND RECOMMENDATION
11
)
RE MOTION TO DISMISS
GUAM, GUAM ELECTION COMMISSION, )
12 ALICE M. TAIJERON, MARTHA C. RUTH, )
JOSEPH F. MESA, JOHNNY P. TAITANO, )
13 JOSHUA F. TENORIO, DONALD I.
)
WEAKLEY, and LEONARDO M. RAPADAS, )
14
)
Defendants.
)
15
)
16
17

This matter comes before the court for a Report and Recommendation on the motion to

18 dismiss Plaintiff's complaint. The Attorney General of Guam on behalf of himself and all the
19 other named defendants filed the motion to dismiss.
20

On November 22, 2011, Plaintiff, Arnold Davis, filed a complaint in this court. Therein,

21 he sought to enjoin Guam and officials of the government of Guam from all action which would
22 prevent him from registering and voting in Guam's 'Political Status Plebiscite'. On December 2,
23 2011, Defendants, represented by Assistant Attorney General Robert M. Weinberg, filed a motion
24 to dismiss the complaint. Plaintiff filed an opposition to the motion on January 3, 2012.
25 Defendants filed a reply to the opposition on January 10, 2012.
26

On December 30, 2011, Anne Perez Hattori, represented by Julian Aguon, Esq., filed a

27 motion for leave to file an Amicus Curiae brief. On January 7, 2012, Plaintiff filed an opposition
28 to Hattori's motion.

Case 1:11-cv-00035 Document 44 Filed 06/14/12 Page 1 of 10

1

On February 1, 2012, the motion to dismiss was referred by the Chief Judge to the

2 undersigned for a Report and Recommendation.
3

Having reviewed the memoranda in support and in opposition to the motion, as well as

4 the amicus curiae brief, the undersigned submits his Report and Recommendation.
5
6

BACKGROUND
On November 22, 2011, Plaintiff filed his complaint herein. In the complaint, he alleges

7 discrimination in the voting process by Guam and the Defendants in violation of Section Two of
8 the Voting Rights Act of 1965. Plaintiff alleges that under Guam law, a 'Political Status
9 Plebiscite' is to be held concerning Guam's future relationship with the United States. Plaintiff, a
10 resident of Guam, states that he applied to vote for the plebiscite but was not permitted to do so
11 because he did not meet the definition of "Native Inhabitant of Guam." Under Guam law, only
12 Native Inhabitants of Guam are permitted to vote in the Political Status Plebiscite. The plebiscite
13 would ask native inhabitants which of the three political status options they preferred. The three
14 choices are Independence, Free Association with the United States, and Statehood.
15

Plaintiff states three causes of action. In his first cause of action, he alleges that by

16 limiting the right to vote in the Political Status Plebiscite to Native Inhabitants of Guam, the
17 purpose and effect of the act was to exclude him and most non-Chamorros from voting therein,
18 thereby resulting in a denial or abridgment of the rights of citizens of the United States to vote on
19 account of race, color, or national origin, a violation of Section 2 of the Voting Rights Act of
20 1965. In his second cause of action, Plaintiff alleges that Defendants are preventing him from
21 registering to vote in the Political Status Plebiscite because he is not a native inhabitant of Guam.
22 Thus, Defendants are engaged in discrimination on the basis of race, color, and/or national origin
23 in violation of various laws of the United States. Plaintiff's third cause of action alleges that he is
24 being discriminated in relation to his fundamental right to vote in the plebiscite in violation of the
25 Organic Act of Guam, the U.S. Constitution and other laws of the United States for the reason that
26 he is not a native inhabitant of Guam.
27

Plaintiff seeks relief enjoining Defendants from preventing Plaintiff and those similarly

28 situated from registering for and voting in the Political Status Plebiscite; enjoining the Defendants
Page -2-

Case 1:11-cv-00035 Document 44 Filed 06/14/12 Page 2 of 10

1 from using the Guam Decolonization Registry in determining who is eligible to vote in the
2 plebiscite; enjoining enforcement of the criminal law provisions of the Act that make it a crime to
3 register or allow a person to vote in the plebiscite who is not a Native Inhabitant of Guam; and a
4 declaration that Defendants' conduct has been and would be, if continued, a violation of law.
5

On December 2, 2011, the Attorney General of Guam, Leonardo M. Rapadas, a named

6 Defendant, on behalf of himself and all named defendants, moved to dismiss the complaint on the
7 ground that it failed to present a case or controversy.
8
9

On December 30, 2011, Anne Perez Hattori, filed a Motion for Leave to file a brief, as
micus Curiae, in support of Defendant's Motion to Dismiss.

10

On January 3, 2012, Plaintiff filed his opposition to Defendant's Motion to Dismiss and on

11 January 7, 2012, he filed an opposition to Hattori's Motion for Leave to file an Amicus Curiae
12 brief.
13

On February 11, Defendant's Motion to Dismiss was referred by the Chief Judge to the

14 undersigned for a Report and Recommendation.
15
16
17
18

On April 6, 2012, the court granted Anne Perez Hattori's motion for leave to file a brief, as
micus Curiae.
Statutory History of the Plebiscite Vote
The current plebiscite law traces its beginnings to P.L. 23-130, which became law on

19 December 30, 1996. Therein, the Guam Legislature established a Chamorro Registry for the
20 purpose of establishing an index of names by the Guam Election Commission for registering
21 Chamorros and recording their names. The Registry was to serve as a tool to educate Chamorros
22 about their status as an indigenous people and their inalienable right to self-determination. A
23 week after the passage of the above referenced law, the Guam Legislature passed P.L. 23-147.
24 This new law created the Commission on Decolonization for the implementation and Exercise of
25 Chamorro Self-Determination ("Commission on Decolonization"). The purpose of the
26 Commission was to ascertain the desires of the Chamorro people of Guam as it pertained to their
27 future political relationship with the United States. The law required the Guam Election
28 Commission to conduct a Political Status Plebiscite at the next Primary Election (September,
Page -3-

Case 1:11-cv-00035 Document 44 Filed 06/14/12 Page 3 of 10

1 1998) during which qualified voters would be asked to choose among three political status
2 options. The status options were Independence, Free Association, and Statehood. The results of
3 the plebiscite were to be transmitted to the President and Congress of the United States and the
4 Secretary General of the United Nations.
5

Seeing that no plebiscite vote occurred during the primary election in 1998, the Guam

6 Legislature passed P.L. 25-106' to have the plebiscite vote take place on July 1, 2000. The Act
7 more importantly changed those persons entitled to vote during the Political Status Plebiscite from
8 "Chamorros to "Native Inhabitants of Guam". A native inhabitant was defined as a person who
9 became a citizen by virtue of the 1950 Organic Act of Guam and a descendant of such person.
10

P.L. 25-106 also created a Guam Decolonization Registry. It was a registry separate and

11 apart from the Chamorro registry. The Decolonization Registry was to create a list of qualified
12 voters for the plebiscite. Thus, every person who was a native inhabitant of Guam as defined in
13 the Act was entitled to register with the Decolonization Registry.
14

Four years after passage of the Guam Decolonization Registry and seeing that a plebiscite

15 vote had still not taken place, the Guam Legislature passed P.L. 27-106 on September 30, 2004.
16 This Act provided that the Political Status Plebiscite shall be held on a general election at which
17 seventy percent (70%) of eligible voters have been registered as determined by the Guam Election
18 Commission.
19
20

DISCUSSION
The Attorney. General argues that Plaintiff's complaint be dismissed because it fails to

21 present a justiciable case or controversy. Even if Plaintiff were denied the right to vote in the
22 plebiscite, Plaintiff would not have suffered any justiciable injury because his rights as a United
23 States citizen, a registered voter, and stakeholder in Guam's future political relationship with the
24 United States remains unaffected'. In footnote 1 of his memorandum, he questions whether the
25 plebiscite vote is imminent or within the foreseeable future and further points out that there is no
26
27
28

'This Act became law on March 24, 2000.
'See pages seven to eight of Attorney General's motion.
Page -4-

Case 1:11-cv-00035 Document 44 Filed 06/14/12 Page 4 of 10

1 indication "nor any suggestion that the 70% threshold of eligible voters, however calculated, is
2 close to being met".
3

Anne Hattori in her amicus curiae brief suggests that Plaintiff's complaint should be

4 dismissed based upon the constitutional doctrine of ripeness. She argues that Plaintiff presents no
5 case or controversy before the court because his case is not ripe for review. Wright-Miller6 Cooper's Federal Practice and Procedure discusses the ripeness doctrine as follows:
7
8
9
10
11
12
13
14

Ripeness doctrine is invoked to determine whether a dispute has yet
matured to a point that warrants decision. The determination is rested
both on Article III concepts and on discretionary reasons of policy. The
central concern is whether the case involves uncertain or contingent
future events that may not occur as anticipated, or indeed may not occur
at all. One of the famous formulations of ripeness principles is an abstract
statement frequently quoted in declaratory judgment cases:
The test to be applied * * * is the familiar one *** :Basically the question in
each case is whether ...there is a substantial controversy, between the parties
having adverse legal interests, of sufficient immediacy and reality to warrant
the issuance of a declaratory judgment.
§3532, Volume 13B, pages 365-369.
The authors state that a more practical formula is that ripeness turns on "the fitness of the

15 issues for judicial decision" and "the hardship to the parties of withholding court consideration".
16 See Abbott Labs. v. Gardner, 387 U.S. 136, 149 (1967), abrogated on other grounds by Califano
17 v. Sanders, 430 U.S. 99, (1977). The party asserting the claim bears the burden of establishing
18 ripeness. Colwell v. Dep't of Health & Human Services, 558 F. 3d 1112, 1121 (9th Cir.
19 2009)(citing Reene v. Geary, 501 U.S. 312, 316 (1991). Ripeness decisions have generally
20 resolved matters dealing with premature issues.
21

Is the matter before the court one that is premature for decision making, i.e., one that is not

22 ripe for review because the alleged controversy between the parties is not of sufficient immediacy
23 and reality to warrant a decision from the court? For guidance, the court looks at the plebiscite
24 law that controls the alleged dispute between the parties. It is contained in 3 GCA Chapter 21,
25 §21110 and provides as follows:
26

§21110. Plebiscite Date and Voting Ballot. (a) The Guam Election Commission shall

27

conduct a "Political Status Plebiscite", at which the following question, which shall be

28

printed in both English and Chamorro, shall be asked of the eligible voters:
Page -5-

Case 1:11-cv-00035 Document 44 Filed 06/14/12 Page 5 of 10

1

`In recognition of your right to self determination, which of the following political status

2

options do you favor? (Mark ONLY ONE):

3

Independence ( )

4

Free Association with the United States of America ( ).

5

Statehood ( )'

6

Person eligible to vote shall include those persons designated as Native Inhabitants

7

of Guam, as defined within this Chapter of the Guam Code Annotated, who are eighteen

8

(18) years of age or older on the date of the 'Political Status Plebiscite' and are

9

registered voters of Guam.

10

The Political Status Plebiscite mandated in subsection (a) of this Section shall be

11

held on a date of the General Election at which seventy percent (70%) of eligible voters,

12

pursuant to this Chapter, have been registered as determined by the Guam Election

13

Commission.

14

In her amicus curiae brief, Hattori points out that the plebiscite vote will only take place

15 some time in the future on a General Election date when the Guam Election Commission
16 determines that 70% of eligible 'Native Inhabitant of Guam' voters have been registered. The
17 Attorney General points out that there is no indication that this threshold is close to being met.
18 More importantly, the Attorney General points out that there is "no indication in the law by what
19 census data or other criteria 70% of eligible voters is to be determined". Hattori echoes the same
20 argument and points out that the Guam Election Commission has not even determined what
21 number is necessary to meet the 70% of eligible voters requirement. Thus, Hattori suggests that
22 the plebiscite election may never take place.
23

When will the plebiscite election take place? At this point in time, it appears that it is an

24 issue that cannot yet be determined. One thing that is certain, however, is that the plebiscite' will
25 not take place in the 2012 General Election. It will take place when the Guam Election
26
27
28

'On April 15, 2011, Bill No. 31-154 was introduced in the 31st Guam Legislature which
would have required that the plebiscite vote take place during the 2014 primary election.
Page -6-

Case 1:11-cv-00035 Document 44 Filed 06/14/12 Page 6 of 10

1 Commission determines that the 70% threshold of native inhabitant voters have been registered.
2 It is interesting to note that in the twelve (12) years since the establishment of the Guam
3 Decolonization Registry, only 5,310 persons have registered as native inhabitants of Guam. This
4 is the number of native inhabitants registered as of May 24, 20124 as reported in the home page of
5 the Guam Election Commission. In contrast, the Commission reports that as of May 23, 2012,
6 there were currently 47,272 registered voters in Guam. Assuming these native inhabitants are also
7 registered voters of Guam, they represent approximately 11.2% of the voting population. As the
8 Defendants and the amicus curiae have pointed out in their brief, there is no indication in the law
9 how the 70% criteria is to be determined. But, assuming hypothetically however, that the 70%
10 criteria were to be determined in relation to total registered voters, it may take a further while for
11 the threshold to be met.
12

As noted above, the Guam Decolonization Registry became law on March 24, 2000. In

13 the twelve years that have passed, it has registered only 5,310 Guam native inhabitants. In its
14 original enactment, the plebiscite vote was supposed to have taken place in the primary election in
15 1998. Almost 14 years have passed and still no plebiscite vote has taken place. Clearly, the
16 elements of ripeness are placed at issue herein.
17

Should the court engage in an academic debate to determine whether the aforesaid "Act"

18 unconstitutionally discriminates against Plaintiff's right to vote in the Political Status Plebiscite
19 when no general election date has been set for the plebiscite? Such an event may not take place at
20 all. Or, it may take place at some time in the future. However, until such a date is set and
21 established by the Guam Election Commission, Plaintiff's complaint has set forth no case or
22 controversy. It is quite clear that at the present time, Plaintiff is not being denied the right to vote
23 in the 'Political Status Plebiscite' for the simple reason that no such plebiscite date is in sight.
24 The plebiscite vote may or may not occur. "A claim is not ripe for adjudication if it rests upon
25 contingent future events that may not occur as anticipated, or indeed may not occur at all." Texas
26
27
28

4A search of the Guam Election Commission's web site on June 14, 2012 revealed
this
number of registered native inhabitants as of the May 23, 2012.

Page -7-

Case 1:11-cv-00035 Document 44 Filed 06/14/12 Page 7 of 10

1 v. United States, 523 U.S. 296, 300 (1998) (internal quotations and citations omitted). A denial of
2 one's right to register to vote in such an election would be justiciable only if such election was
3 imminent. That the plebiscite vote does not present an imminent controversy is further buttressed
4 by the fact that Plaintiff did not file his complaint until more than 11 years after creation of the
5 Decolonization Registry. More importantly, Plaintiff waited more than 11 years since the
6 plebiscite vote was restricted solely to native inhabitants before filing his complaint even though
7 he has reportedly been living in Guam since 19775. In contrast, he has stated that he is a
8 registered voter in Guam and "has voted in the past in many Guam general elections".6
9

As a final point, the court must address Plaintiff's request which (1) seeks to enjoin the

10 Attorney General from enforcing the provisions of the plebiscite act which makes it a crime to
11 register or allow a person to register for the plebiscite with the Guam Decolonization Registry
12 who is not a Native Inhabitant of Guam and (2) seeks a determination from the court that
13 Defendants' conduct has been, and would be if continued, a violation of law.
14

§21009 of 3 GCA, Chapter 21, provides as follows:

15

Any person who willfully causes, procures or allows that person, or
any person, to be registered with the Guam Decolonization Registry, while
knowing that the person, or other person, is not entitled to register with the
Guam Decolonization Registry, shall be guilty of perjury as a misdemeanor.
The Guam Decolonization Registry shall have such false affidavit of registration
automatically stricken from the Registry.

16
17
18
19

Section 21009 makes it a misdemeanor for anyone who "wilfully causes, procures or

20 allows" any person "to be registered with the Guam Decolonization Registry, while knowing that
21 the person... is not entitled to register" with the Decolonization Registry. Again, the court finds
22 that Plaintiff has presented no case or controversy to invoke judicial review from the court.
23

In the first instance, his complaint does not allege that he has been charged with a

24 misdemeanor for attempting to register with the Decolonization Registry'. Thus, he has not been
25
26
27
28

'See page seven, last paragraph of amicus curiae brief.
6See Paragraph 20 of Plaintiff's complaint.
'Plaintiff applied to register for the plebiscite but was not permitted to do so because he
did not meet the definition of a "Native inhabitant of Guam". See Paragraph 21 of the complaint.
Page -8-

Case 1:11-cv-00035 Document 44 Filed 06/14/12 Page 8 of 10

1 harmed and has suffered no injury therefrom. The Act does not make an attempt to register with
2 the Decolonization Registry and a denial thereof a criminal act.
3

In the second instance, if Plaintiff has not been charged with a misdemeanor offense, for

4 his complaint to be ripe for the court's review, he must show that he is subject to a 'genuine threat
5 of imminent prosecution'. See Wolfson v. Brammer, 616 F. 3d 1045, (9th Cir.2010), quoting
6 San Diego Cnty. Gun rights Comm. V. Reno, 98 F. 3d 1121, 1126 (9th Cir. 1996). In evaluating
7 threats of imminent prosecution, the court considers: (1) whether plaintiff has articulated a
8 concrete plan to violate the law in question; (2) whether prosecuting authorities have
9 communicated a specific warning or threat to initiate proceedings; and (3) whether the past history
10 of past prosecution or enforcement under the challenged statute suggests that prosecution may, in
11 fact, be imminent. Again, in reviewing Plaintiffs complaint, the court finds that his pleadings do
12 not allege the necessary elements. All that Plaintiff has alleged is that he applied to register for
13 the plebiscite but was not permitted to do so because he did not meet the definition of a native
14 inhabitant of Guam.
15

Finally, Plaintiff asks the court to declare Defendants' conduct in attempting to enforce the

16 provisions of the plebiscite vote to be a violation of law. In the absence of a case or controversy,
17 the court will decline to do so.
18
19

CONCLUSION

Based upon the reasons stated herein above, the court recommends that Defendants'

20 motion to dismiss, supported herein by the Amicus Curiae brief, be granted for the following
21 reasons:
22

Plaintiffs complaint which seeks to enjoin Defendants from preventing him from

23 registering and voting in the 'Political Status Plebiscite' on a general election presents no case or
24 controversy since the matter is not ripe for adjudication. There is no plebiscite vote set in the
25 2012 general election and no plebiscite vote date is in sight. Plaintiffs allegations present no
26 sufficient immediacy and reality to warrant intervention by the court.
27

Plaintiff has no standing to bring an action to enjoin the Attorney General from

28 enforcing the provisions of the plebiscite law that makes it a misdemeanor to register or allow
Page -9-

Case 1:11-cv-00035 Document 44 Filed 06/14/12 Page 9 of 10

anyone to register with the Guam Decolonization Registry if the person were not a Native
Inhabitant of Guam. Plaintiff has not alleged that he has been charged with any crime in relation
to the Political Status Plebiscite act nor has he shown that he is subject to a genuine threat of
imminent prosecution in relation to the said act.
Dated this 14th day of June, 2012.
/s/ Joaquin V.E. Manibusan, Jr.
U.S. Magistrate Judge

NOTICE: THE PARTIES HAVE FOURTEEN (14) DAYS TO FILE OBJECTIONS TO
THE REPORT AND RECOMMENDATION.

Page -10-

Case 1:11-cv-00035 Document 44 Filed 06/14/12 Page 10 of 10

EXHIBIT 5

1
2
3
4
5
6

IN THE DISTRICT COURT OF GUAM

7
8
9

ARNOLD DAVIS, on behalf of himself
and others similarly situated,

10
11
12
13
14
15

CIVIL CASE NO. 11-00035

Plaintiff,
vs.

ORDER
GUAM, GUAM ELECTION
COMMISSION, ALICE M. TAIJERON,
MARTHA C. RUTH, JOSEPH F.
TENORIO, DONALD I. WEAKLEY,
AND LEONARDO M. RAPADAS,
Defendants.

16
17
18
19
20
21
22

The Attorney General of Guam's Motion to Dismiss for all Defendants is before this
court. Defs.' Mot., ECF No. 17. Pursuant to 28 U.S.C. § 636(b)(1)(B), this motion is hereby
referred to Magistrate Judge Joaquin V.E. Manibusan, Jr. to determine and to issue his report
and recommendation as to the appropriate disposition.
SO ORDERED.

23
24
25

/s/ Frances M. Tydingco-Gatewood
Chief Judge
Dated: Feb 01, 2012

26
27
28

MIT 5
Case 1:11-cv-00035 Document 25 Filed 02/01/12 Page 1 of 1

